<html>
<title> - SPRING VALLEY REVISITED: THE STATUS OF THE CLEANUP OF CONTAMINATED SITES IN SPRING VALLEY</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





  SPRING VALLEY REVISITED: THE STATUS OF THE CLEANUP OF CONTAMINATED 
                         SITES IN SPRING VALLEY

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 26, 2002

                               __________

                           Serial No. 107-176

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                -------
85-724              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                Subcommittee on the District of Columbia

                CONSTANCE A. MORELLA, Maryland, Chairman
TODD RUSSELL PLATTS, Pennsylvania    ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia,               DC
CHRISTOPHER SHAYS, Connecticut       DIANE E. WATSON, California
                                     STEPHEN F. LYNCH, Massachusetts

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Russell Smith, Staff Director
                      Heea Vazirani-Fales, Counsel
               Matthew Batt, Legbislative Assistant/Clerk
                      Jon Bouker, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 26, 2002....................................     1
Statement of:
    Blumenauer, Hon. Earl, a Representative in Congress from the 
      State of Oregon............................................     6
    Williams, Rear Admiral Robert C., P.E., Assistant Surgeon 
      General, U.S. Public Health Service, Director, Division of 
      Health Assessment and Consultation, Agency for Toxic 
      Substances and Disease Registry, U.S. Department of Health 
      and Human Services; Bailus Walker, Jr., chairman, District 
      of Columbia Mayor's Spring Valley Scientific Advisory 
      Panel; Sarah Shapley, co-Chair, Spring Valley Restoration 
      Advisory Board; and William C. Harrop, president, Spring 
      Valley-Wesley Heights Citizens Association.................   108
    Wood, David G., Director, Natural Resources and Environment, 
      U.S. General Accounting Office; Raymond J. Fatz, Deputy 
      Assistant Secretary of the Army, Environment, Safety and 
      Occupational Health; Colonel Charles J. Fiala, Jr., 
      Commander, Baltimore District, U.S. Army Corps of 
      Engineers, accompanied by Major Michael D. Peloquin, Deputy 
      District Engineer, Spring Valley FUDS Site, Army Corps of 
      Engineers; Thomas C. Voltaggio, Deputy Regional 
      Administrator, Mid-Atlantic Region, U.S. Environmental 
      Protection Agency; and Theodore Gordon, senior deputy 
      director for public health assurance, District of Columbia 
      Department of Health, accompanied by Lynette Stokes, chief, 
      Bureau of Hazardous Materials and Toxic Substances, 
      District of Columbia Department of Health..................    15
Letters, statements, etc., submitted for the record by:
    Blumenauer, Hon. Earl, a Representative in Congress from the 
      State of Oregon, prepared statement of.....................     9
    Buford, James, interim director, District of Columbia 
      Department of Health, prepared statement of................    76
    Fatz, Raymond J., Deputy Assistant Secretary of the Army, 
      Environment, Safety and Occupational Health, prepared 
      statement of...............................................    36
    Fiala, Charles J., Jr., Commander, Baltimore District, U.S. 
      Army Corps of Engineers, prepared statement of.............    46
    Harrop, William C., president, Spring Valley-Wesley Heights 
      Citizens Association, prepared statement of................   150
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     3
    Shapley, Sarah, co-Chair, Spring Valley Restoration Advisory 
      Board, prepared statement of...............................   145
    Voltaggio, Thomas C., Deputy Regional Administrator, Mid-
      Atlantic Region, U.S. Environmental Protection Agency, 
      prepared statement of......................................    64
    Walker, Bailus, Jr., chairman, District of Columbia Mayor's 
      Spring Valley Scientific Advisory Panel, prepared statement 
      of.........................................................   120
    Williams, Rear Admiral Robert C., P.E., Assistant Surgeon 
      General, U.S. Public Health Service, Director, Division of 
      Health Assessment and Consultation, Agency for Toxic 
      Substances and Disease Registry, U.S. Department of Health 
      and Human Services, prepared statement of..................   110
    Wood, David G., Director, Natural Resources and Environment, 
      U.S. General Accounting Office, prepared statement of......    17

 
  SPRING VALLEY REVISITED: THE STATUS OF THE CLEANUP OF CONTAMINATED 
                         SITES IN SPRING VALLEY

                              ----------                              


                        WEDNESDAY, JUNE 26, 2002

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Constance E. 
Morella (chairwoman of the committee) presiding.
    Present: Representatives Morella, Norton, Watson, and 
Shays.
    Staff present: Russell Smith, staff director; Matthew Batt, 
Legislative assistant/clerk; Robert White, communications 
director; Shalley Kim, staff assistant; Heea Vazirani-Fales, 
counsel; Jon Bouker, minority counsel; and Jean Gosa, minority 
assistant clerk.
    Mrs. Morella. I'm going to call to order the Subcommittee 
on the District of Columbia.
    The hearing today is on ``Spring Valley Revisited, the 
Status of the Cleanup of Contaminated Sites in Spring Valley.'' 
I want to welcome our colleague, who will be the first one to 
testify this morning.
    But I would like to say that it was not quite a year ago 
the subcommittee convened our first hearing into the issue of 
arsenic and other chemical contamination in the Spring Valley 
neighborhood of the District of Columbia. The problems stemmed 
from a weapons laboratory that spread out across hundreds of 
acres of American University and the surrounding neighborhood 
during World War I. The American University Experimental 
Station, as it was known, was the second largest chemical 
weapons facility in the world at that time, employing as many 
as 1,900 military and civilian personnel. Untold numbers of 
experimental chemical weapons were created, exploded and buried 
on its grounds.
    At the time, our last hearing, I said that we were on a 
search for answers. We wanted to know how these buried 
munitions remained undiscovered for nearly 80 years, whether 
Federal agencies or other parties could have been more 
aggressive in searching for possible contamination, and how 
quickly the Army Corps of Engineers was going to move to 
identify the extent of the problem and conduct the cleanup.
    Congresswoman Norton and I, last year, requested a General 
Accounting Office investigation of the matter, and that 
completed report becomes part of the public record today. Even 
with the work of the GAO, however, we are still in search of 
many answers. We still don't know why the Army Corps failed to 
identify the Spring Valley area as contaminated before 1993, 
when a construction crew accidentally discovered munitions. We 
still do not know whether the management of the Environmental 
Protection Agency back in 1986 received or reviewed 
photographic evidence of World War I chemical weapons testing 
in that area, evidence that was compiled by the agency's own 
photographic interpretation division. And we are still unclear 
about the progress of any criminal investigation into this 
matter.
    Whereas last year's hearing focused on what went wrong in 
the past, and it's sad and disturbing that we may never know 
the whole story, today we're going to be looking ahead. There 
are some pressing issues that need to be addressed to ensure 
that the remediation process moves as quickly and as 
effectively as possible. The residents of Spring Valley and the 
people who work in the area deserve finality.
    Yes, progress is good, and it does appear as if the Army 
Corps and its various partners are making solid progress in 
rectifying the situation. But we must have a definite and 
narrow timeframe as to when all testing, digging and cleaning 
up will be finished. We need to know that the Army Corps has a 
detailed remediation plan and enough money to finish the job.
    I also hope this hearing will shed some light onto whether 
the residents, past or present, of the Spring Valley area face 
any long term health risks due to the arsenic that lay 
underground for so long. The Federal Government needs to be 
able to look the residents of Spring Valley in the eye and say, 
your house is safe, your property is safe, you are safe, your 
children are safe. We're very cognizant of the hard work being 
done by the Army Corps, the EPA, the District of Columbia 
Department of Health, the Mayor's Scientific Advisory Board and 
the Restoration Advisory Board. The GAO report commends this 
partnership for its effort in communicating with the public. 
And from my understanding, there truly has been a marked 
improvement in the public's participation in this process 
compared to the situation from early last year.
    So as we look ahead at this hearing, I think there are 
still questions to be answered. I still consider it a work in 
progress and hope that we will be able to have some sense that 
we are moving ahead.
    I now recognize the distinguished ranking member, 
Congressman Norton, for her opening comments.
    [The prepared statement of Hon. Constance A. Morella 
follows:]

[GRAPHIC] [TIFF OMITTED] T5724.001

[GRAPHIC] [TIFF OMITTED] T5724.002

    Ms. Norton. Thank you very much, Mrs. Morella. I want to 
thank our distinguished Chair, Representative Connie Morella, 
for calling this hearing to hear the results of a GAO 
investigation and report that she and I requested concerning 
World War I munitions buried by the U.S. Army in the Spring 
Valley neighborhood of northwest Washington. This is our second 
hearing on the cleanup. I requested the first hearing in 
February 2001 as the 107th Congress began, simply as matter of 
oversight before Spring Valley became the tangle of mystery and 
concern about responsibility, health effects and costs it has 
now become.
    The first hearing, held in July 2001, became a matter of 
greater interest when a Washington Post investigation suggested 
that the Federal Government had failed to fully and 
expeditiously investigate and reveal evidence of buried 
chemical weapons, and in addition, had incompletely analyzed 
and conducted aspects of the cleanup. So many new questions 
were raised and these charges were so serious that they could 
not be sufficiently investigated through a congressional 
hearing alone. Mrs. Morella and I therefore requested the GAO 
report and findings to be reported today.
    I will not rehearse the unfortunate and complicated set of 
events that led us to request the GAO report and to conduct our 
second hearing on this subject. But it is clear that more 
hearings, as part of the close and continuing oversight by this 
subcommittee, will be necessary for some years to come, until 
it is clear that the continuation of any resulting health 
effects, should there be any, are under control or have been 
eliminated.
    I have been closely following the cleanup, and both the 
progress and the problems are considerable. However, now the 
Army Corps of Engineers is working closely with the community 
and the District. Recently I announced an additional $5.2 
million that allowed work to continue at several sites. Through 
fiscal year 2001, the Corps has spent $53.4 million and $18 
more is expected to be spent in 2002. But even now, it is not 
clear what the total cost will be. What is clear is that the 
Spring Valley residents are innocent victims and that the 
Federal Government is the responsible party to be held 
accountable until the cleanup and any health effects that are 
discovered have been eliminated.
    We continue to be deeply concerned about what went wrong. 
There is no way to avoid mistakes in the future without 
assessing their causes. However, two questions will take 
primacy over all others for me today. First, what are the 
health effects of the contamination on my constituents and what 
can be done and is being done about them? Second, what will be 
the cost and duration of the cleanup, how can we assure 
continuing and uninterrupted funding, and what can be done to 
speed the cleanup process?
    Spring Valley is a beautiful and highly desirable 
residential neighborhood. Most of its residents have lived in 
the District for years, including the years of the city's 
financial hardship, when many Washingtonians left for the 
suburbs. Spring Valley residents deserve to live in homes free 
from fears concerning their health and the health of their 
children. The obligation of this subcommittee is to assure 
these fears are eliminated by in turn holding the responsible 
Federal agencies accountable to meet their obligations to the 
Spring Valley community. I have no doubt that both these 
obligations will be met.
    May I welcome today's witnesses and thank them for their 
testimony. I especially welcome my good friend and colleague, 
Representative Earl Blumenauer, who has given important 
leadership to formerly used defense sites like Spring Valley 
located throughout the United States. Thank you, Madam Chair.
    Mrs. Morella. Thank you, Congresswoman Norton. And again, 
I'm pleased to recognize our first panelist, Congressman Earl 
Blumenauer, who is a good friend who works with us on so many 
issues, particular those that have to do with the environment 
and personal safety. So I appreciate his being here and I now 
recognize him for a statement. Welcome.

STATEMENT OF HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Blumenauer. Thank you, Madam Chair and Ranking Member 
Norton. As a Member of Congress and as a part time resident of 
the District, I feel better knowing that you are on the job 
helping us out. Because this is a serious issue for us in both 
hats that we wear, as citizens and residents and as Members of 
Congress.
    Last spring I was privileged to attend a little field trip 
with Congresswoman Norton, as we visited the sites, as we saw 
the child care center on American University's campus still 
closed, the rugby field that you'll hear about. We looked 
across the road and saw the back yard of the Korean 
ambassador's official residence dug out. And as we went through 
the neighborhood, looking at the work that was being done, it 
did bring home the stark reality, the magnitude of the problem 
that remains, and the importance of the work you're doing. Not 
just because it's important to assure the safety and security 
of the residents, the students, and the people in the District 
of Columbia, but because of what this represents nationally.
    I am firmly convinced that our ability to understand what 
happened on this site, what is happening and how to 
appropriately remedy it is going to make a huge difference in 
our ability to deal with the broader issue of unexploded 
ordnance cleanup, and I salute you for the work that you are 
doing.
    But there is special attention that needs to be focused on 
this particular site. As the Chairwoman mentioned, at one point 
this was a hotbed of activity. But it's not just in this area. 
Washington, DC, as the Nation's capital, has been the focal 
point for military operations since the founding of the 
capital. Despite its small size, the District, by the 
information I've received, is No. 10 amongst all the 50 States 
and the District. It ranks No. 10, ahead of 40 States, in terms 
of the number of potential buried ordnance sites, according to 
the Department of Defense ranking. As you mentioned, this is 
part of the toxic legacy of World War I chemical weapons. And 
it continues 84 years later.
    It is critical to be able to put the laser light of 
attention that you can direct from this subcommittee. We've 
already had two cleanups on the site, and as you know, the job 
is not finished. Residents continue to be at risk. The 
situation that exists in Spring Valley today ought to force us 
to give the overall problem nationally the attention that it 
deserves. People at risk should not have to play politics and 
resort to the news media to be able to have the problems that 
they're experiencing appropriately addressed.
    Across the Nation, tens of millions of acres are 
contaminated by the toxic consequences of our military 
activities. And if, when we are going to give approximately 
$400 billion or more in this fiscal year for our military 
activities, now is not, I think, an unrealistic time to have a 
small portion of that resource spent in helping the military 
clean up after itself. The one risk, the toxic legacy that most 
urgently needs to be addressed, is that of unexploded ordnance, 
the bombs and shells that did not go off as intended and 
subsequently litter the landscape and put people at risk. There 
are some 2,000 formerly used Defense sites and closed bases 
that are contaminated with UXO. No one yet is really in charge 
of dealing with the problem. And there certainly is not 
adequate funding to address it. What you are seeing with your 
GAO study, with the work that the subcommittee has ferreted out 
in the past, and continuing oversight these bring to the 
surface, is part of a larger question. If we were doing our job 
properly on a national basis, your task would not be so 
difficult.
    Last year, the Department of Defense provided a $14 billion 
estimate for cleaning up UXO nationwide. But that is nowhere 
near the price tag. According to the General Accounting Office 
report of April last year, there are estimates within the 
Department itself for UXO cleanup on training ranges alone that 
total over $100 billion. This cost of cleaning up the ordnance 
and chemical weapons is tremendous. I have heard estimates that 
go far beyond that from the private sector people who are 
struggling to figure out how to deal with it. In addition, the 
Department of Defense has estimated that it will cost $16 
billion to remediate the hazardous waste contamination at over 
4,000 sites on the Nation's 1,700 active and recently closed 
bases, and at least 1,200 formerly used Defense sites.
    I think, Madam Chair, Congresswoman Norton, that Spring 
Valley does emphasize three important lessons. The first is 
that we have to make more careful assessment of the needs of 
UXO problems. We can't be in such a hurry to finish cleanup 
that premature decisions are made that could potentially do 
more harm because people rely upon those decisions. Often, 
decisions are made that no further action is necessary, yet the 
public is still at risk. This is a mistake that both the State 
and Federal regulators have made repeatedly. The Corps of 
Engineers, with the concurrence of the Environmental Protection 
Agency, announced in 1995 that Spring Valley had been cleaned 
up. But since that declaration was made, as you well know, 700 
mortar and artillery shells were found and 200 bottles of 
poison gas have been recovered so far. And the job is not 
finished.
    The second lesson of Spring Valley is that proper record 
keeping of military activities is not just paper shuffling. 
It's not a secondary concern. Government records concerning 
military activity from decades past are hard to find. I note 
you have our favorite map here that goes back about 80 years. 
And people are looking at this aerial survey, trying to 
reconstruct what happened on the site. As you mentioned, almost 
2,000 people worked there and over 100 structures were there.
    This is not appropriate. In the Pacific Northwest, we're 
dealing with problems with the Hanford Military Reservation 
with toxic radioactive waste. We have no idea what is there. 
Better management of our activities with the information and 
archives and investing the money needed will provide better 
environmental and ordnance response and will make a huge 
difference in protecting the public.
    Last but by no means least, with your help in focusing the 
attention on this, I think we can devote adequate funding to 
address these problems up front. I mentioned over $400 billion 
that's in the pipeline for the Department of Defense and 
related activity. This week, we're dealing with military 
construction and Defense appropriations. Although cleanup does 
not get cheaper, and costs can be an embarrassment if we don't 
do it right, not just in terms of requiring more money, but 
putting people at risk, the irony is that if we spend money 
properly, if we spend more money now to do the job right, 
actually the per unit costs are going to go down dramatically.
    We will reduce liability. We will have more people 
participating. We can improve the technology. Some of it looked 
pretty primitive when Congresswoman Norton and I were looking 
at the activities that were going on. We can't really tell 
whether it's a hubcap or a bomb sometimes that's out in the 
countryside.
    With your help, I know we can provide the long overdue 
treatment the District deserves and do the right thing for the 
country. A framework for addressing the problem must be put in 
place and much greater attention must be paid to the issue by 
Congress and the Department of Defense. Creativity and follow-
through are essential. I know with your help we can achieve 
that. I deeply appreciate your continued interest, your dogged 
determination to do this right and I stand willing, even though 
I'm a little ways away from the District, to help in any way 
that I can.
    [The prepared statement of Mr. Blumenauer follows:]

    [GRAPHIC] [TIFF OMITTED] T5724.003
    
    [GRAPHIC] [TIFF OMITTED] T5724.004
    
    [GRAPHIC] [TIFF OMITTED] T5724.005
    
    Mrs. Morella. We appreciate your interest and followup. 
Your testimony was excellent, as well as the field trip and 
your passion for the issue. I note your three points--more 
careful assessment, record keeping, better management, adequate 
funding.
    Given your knowledge and expertise on the Federal funding 
of the formerly utilized Defense sites, FUDS, as they call 
them, would you share with the subcommittee your thoughts and 
observations about how the Defense Department does allocate 
funds to these FUDS for environmental cleanup and compliance 
activities?
    Mr. Blumenauer. Madam Chair, I am concerned that we are 
actualy putting the Department of Defense in a difficult spot. 
Thanks to the Corps of Engineers and our friends at the 
Department of Defense, there's been a lot of work that's been 
done of late, there's progress that's been made. You're going 
to hear from some really capable people who have been putting 
heart and soul into it.
    The concern I have is that because this has not received 
the necessary priority, in the Defense authorization, for 
instance, we actually decreased to raise the level of potential 
research and other activities. What happens is that DOD has an 
impossibly small budget and we find that too often they get 
summoned when something gets in the news, and it's pretty 
dramatic what's going on in Spring Valley, so they have to 
shift resources. It's very hard for them to do this on a 
systematic basis.
    I truly believe that it's going to require Congress to not 
be missing in action. We've got to authorize appropriate money 
for cleanup and for research, and we have to not have wide 
variations from year to year. This is because they truly don't 
know what they're dealing with.
    So I know there are those who have more technical expertise 
than I and can talk about approaches and what-not. But I 
fundamentally believe the problem is that we in Congress 
haven't yet done our job.
    Mrs. Morella. Is there criteria that you know of in terms 
of prioritizing those sites for funding?
    Mr. Blumenauer. They can speak to that. But really, the 
work that I have done is that I have looked at various places. 
What's happened is a lot of this is driven by imperatives of 
what has happened in terms of unintended consequences and media 
and political intervention.
    Mrs. Morella. So it's a reaction?
    Mr. Blumenauer. Very much reactive.
    Mrs. Morella. So what you're saying is that we need to have 
a whole plan. We need to establish criteria, prioritize, and be 
preventive.
    Mr. Blumenauer. Madam Chair, that is well stated. But I 
will say that I think the reality is going to be that there 
will be certain things that will just burst on the scene that 
will have more of a dramatic or political impact. And those in 
the Corps of Engineers or Department of Defense will respond to 
the will of Congress and the public. That's not a way to deal 
with this massive problem, even just within the District of 
Columbia, let alone nationally.
    Mrs. Morella. You have legislation you've introduced that 
deals with some of this. Would you like to expand on that?
    Mr. Blumenauer. Yes, ma'am. We are seeking in part to have 
somebody in charge in the Department of Defense, to pinpoint 
responsibility. We have required that an inventory be 
developed. We have been slowly but surely getting little bits 
and pieces worked in, but we hope at some point we will get a 
comprehensive congressional statement. I'm happy to provide 
more of that to the committee as you see fit.
    Mrs. Morella. Splendid. Thank you very much. And thank you 
for your continued work in this particular area. We appreciate 
it very much.
    I am going to recognize the distinguished ranking member, 
but before I do, I would like to acknowledge that we have the 
gentlewoman from California who is here, Diane Watson, who 
serves on this committee.
    Ms. Norton. Thank you, Madam Chair. I'm not going to detail 
Mr. Blumenauer long, indeed, I apologize that beginning at 11 
o'clock I'm going to have to come back and forth. There are two 
markups that begin there, including one concerning guns in the 
cockpit, which I strongly oppose. I'm going to therefore be 
detained.
    I want to say that I am a co-sponsor of your bill, the 
Ordnance and Explosives Risk Management Act. It's a no-cost 
bill. You simply want a program manager, you want to prioritize 
and to identify where these funds are. Frankly, they are so 
widespread in so many districts, I can't believe that we will 
not have many allies, once they come to understand what is at 
stake. Spring Valley is a way to understand what is at stake. 
You emphasized quite correctly that we are No. 10 among the 
States with these sites.
    Spring Valley should receive priority, not only because we 
rank so high, but because this is one of the few sites that has 
been uncovered in a densely residential area. And if I may say 
so, if the District had had home rule the way other States do, 
and had a Member of Congress during World War I, I doubt that 
they could have used our city within the city limits as a 
dumping ground. It is one more reason why every locality ought 
to have its own elected officials and its own Member of 
Congress with a vote, able to protect the locality. It's very 
easy to say, just dump it in the District.
    That's why we're giving priority to the District, not to 
mention the fact that there are women and children involved 
here. It's not like it is in some States out in the desert some 
place. It's right here where our people live and work.
    I certainly hope, however, that given the danger that these 
buried munitions pose wherever they are found, that your bill 
will get the attention and the support of the entire Congress. 
I thank you very much for being willing to come this morning 
and testify.
    Mrs. Morella. Thank you, Ms. Norton. Ms. Watson, if you'd 
like to make any comments or have any questions of Congressman 
Blumenauer.
    Ms. Watson. Yes. This Spring Valley issue just points up a 
greater issue that we're going to have to take up seriously. 
And that is, what do we do with these depositories, with bases 
and so on that we leave behind contaminated? And I want to join 
with my other two distinguished colleagues in asking that we 
maybe request that there be action taken on the cleanup of 
Spring Valley that is long overdue and other top priority sites 
across the country. I think that maybe we need to, the larger 
committee, needs to hold a hearing where we talk about other 
No. 1 sites and what the EPA is doing. But I see the Spring 
Valley as an issue that needs to be addressed at the current 
time, but we need to address the bigger issue about how rapidly 
we're doing the cleanups and budget for them.
    So thank you so much for bringing the issue back again in 
front of us. I am with my colleagues in whatever we can do.
    Mrs. Morella. And I think that's exactly what Congressman 
Blumenauer would like. I would now like to recognize one of the 
newest members of this subcommittee, the Honorable Chris Shays 
from Connecticut for any comments he may have.
    Mr. Shays. Thank you, Madam Chair. Madam Chair, I am a new 
member to this committee and delighted to be a new member. I 
feel the responsibility that Congress has with D.C. is a 
tremendous responsibility. I don't think we have lived up to 
it. So I'm happy to kind of help you in this effort with your 
distinguished ranking member.
    I just wanted to be here to also say that my Committee on 
National Security believes that Mr. Blumenauer is right on 
track with what's happening in D.C. and throughout the country, 
major expenditures that we have really put to the back burner 
because we don't want to confront them. And he is, in a sense, 
forcing us to confront them. I have tremendous respect for him 
and I just want to thank him personally for what he's done, and 
to let you know that our subcommittee, the National Security 
Subcommittee, is happy to work with you and to follow your 
guidance on this effort and see how we can help in other places 
around the country.
    Mr. Blumenauer. Thank you.
    Mrs. Morella. Thank you, Mr. Shays. Congressman Blumenauer, 
we thank you very much. As you can see, you have a very 
responsive group up here, and we will follow through.
    Mr. Blumenauer. Super. Thank you.
    Mrs. Morella. I'm now going to ask our second panel to come 
forward, please. David Wood, the Director of Natural Resources 
and the Environment, who's done the GAO report. Raymond J. 
Fatz, Deputy Assistant Secretary of the Army, Environment, 
Safety and Occupational Health. Colonel Charles J. Fiala, Jr., 
who is the District Engineer of the U.S. Army Corps of 
Engineers, the Baltimore District. He is accompanied by Major 
Michael D. Peloquin, who is the Deputy District Engineer of 
Spring Valley FUDS Site, the Army Corps of Engineers. Thomas C. 
Voltaggio, who is the Regional Administrator of the 
Environmental Protection Agency, in Region III. Theodore J. 
Gordon, who is the Senior Deputy Director for Operations, of 
the District of Columbia Department of Health. And Mr. Gordon 
is accompanied by Dr. Lynette Stokes, Chief, Environmental 
Health Administration of the District of Columbia Department of 
Health.
    I would ask all of you to stand so I can administer an 
oath, which is the tradition of this subcommittee and the full 
committee. I would also ask Dr. Stokes and Major Peloquin, 
also, if they would be part of administering the oath, too.
    [Witnesses sworn.]
    Mrs. Morella. The record will show an affirmative response 
of all who are here. We will allocate each of you kind of a 
maximum of 5 minutes, so we have a chance to ask questions. 
Looking at the panel, if we could start off with Mr. Wood and 
move in that order. Thank you, sir.

 STATEMENTS OF DAVID G. WOOD, DIRECTOR, NATURAL RESOURCES AND 
 ENVIRONMENT, U.S. GENERAL ACCOUNTING OFFICE; RAYMOND J. FATZ, 
DEPUTY ASSISTANT SECRETARY OF THE ARMY, ENVIRONMENT, SAFETY AND 
OCCUPATIONAL HEALTH; COLONEL CHARLES J. FIALA, JR., COMMANDER, 
 BALTIMORE DISTRICT, U.S. ARMY CORPS OF ENGINEERS, ACCOMPANIED 
BY MAJOR MICHAEL D. PELOQUIN, DEPUTY DISTRICT ENGINEER, SPRING 
VALLEY FUDS SITE, ARMY CORPS OF ENGINEERS; THOMAS C. VOLTAGGIO, 
   DEPUTY REGIONAL ADMINISTRATOR, MID-ATLANTIC REGION, U.S. 
 ENVIRONMENTAL PROTECTION AGENCY; AND THEODORE GORDON, SENIOR 
   DEPUTY DIRECTOR FOR PUBLIC HEALTH ASSURANCE, DISTRICT OF 
 COLUMBIA DEPARTMENT OF HEALTH, ACCOMPANIED BY LYNETTE STOKES, 
  CHIEF, BUREAU OF HAZARDOUS MATERIALS AND TOXIC SUBSTANCES, 
           DISTRICT OF COLUMBIA DEPARTMENT OF HEALTH

    Mr. Wood. Thank you, Madam Chairwoman.
    In response to the request from you and Ranking Member 
Norton, we gathered information on four aspects of the Spring 
Valley cleanup effort. These were, one, the roles of the 
Government entities involved, as authorized by statute, 
regulation and guidance, and as actually carried out; two, the 
progress that has been made in identifying and removing hazards 
at the site; three, the health risks that are associated with 
these hazards; and four, the estimated cost and schedule of the 
remaining cleanup activities.
    Our report and my written statement provides an overview of 
the statutory authorities for the roles of the three Government 
entities, namely, the Army Corps of Engineers, the 
Environmental Protection Agency and the District of Columbia 
Health Department. The report and statement also provides 
updated information on the hazards that have been identified 
and removed from the site.
    In the interest of time, I will not go over that 
information now, but will focus my remarks on the remaining two 
areas. First, the remaining health risks. Of the contaminants 
known to be present at elevated levels, arsenic is deemed to 
pose the greatest risk to human health. Over the past year, the 
agencies have been in the process of reaching agreement on a 
single level of arsenic that may remain in the soil throughout 
the site that is protective of human health and the 
environment.
    Also, since last fall, the Corps has been sampling the soil 
on each Spring Valley property in order to identify those with 
the highest levels of contamination. Efforts have been underway 
to determine the health risks to Spring Valley residents 
specifically posed by the arsenic contamination in the soil. In 
these efforts, the agencies have been assisted by the Federal 
Agency for Toxic Substances and Disease Registry, or ATSDR. 
Further, they have received advice from the Mayor's Scientific 
Advisory Panel. The panel is specifically charged with 
reviewing the processes used to identify contaminants in the 
Spring Valley neighborhood and assuring that the best 
scientific knowledge is applied.
    ATSDR has performed additional exposure testing of 
residents of Spring Valley properties with elevated soil 
levels. Further, the D.C. Health Department has carried out a 
descriptive epidemiological study of certain arsenic related 
health effects. In this study, data on incidents of certain 
cancers among Spring Valley residents were compared with those 
found in a control group located in another area. The 
Department concluded that for some cancers, the number of cases 
at Spring Valley was too small to conduct meaningful analysis. 
For others, specifically bladder, skin and lung cancers, the 
Department observed no excess of incidence in mortality in 
Spring Valley.
    Residents have raised concerns about the scope and 
completeness of the exposure testing and epidemiological 
studies. The Department has stated that it will expand its 
investigations and include additional hazards if they are found 
at levels of concern in Spring Valley.
    The final topic I will speak to is the projected cost and 
timeframe to complete the site cleanup. At our request, the 
Corps updated its estimates. As of April 2002, the Corps 
estimated that the remaining cleanup activities at Spring 
Valley would cost $71.7 million and require 5 more years until 
completion, projected to occur in 2007. However, many factors, 
such as the potential discovery of additional hazards or 
changes in annual funding levels, make these estimates 
uncertain.
    Since fiscal year 1997, the Corps has increased the total 
estimated cost for the Spring Valley cleanup sixfold, from 
about $21 million in fiscal year 1997 to about $125 million as 
of April 2002. The Corps has reduced its estimate of the time 
it will take to complete the cleanup by increasing considerably 
the amount of annual funding it plans to devote to the site. 
However, any significant increases in the total cost of 
completing the cleanup or decreases in the amount of available 
annual funding would likely lead the Corps to extend the 
completion date further into the future.
    Madam Chairwoman, in concluding, I'd like to note that the 
Spring Valley site, while unique in some respects, is one of 
some 9,200 formerly used Defense sites identified by the Corps. 
As was evident at your hearing last year, and as you alluded 
during your opening comments, the history of this site raises 
questions about the adequacy of the Corps' process for making 
cleanup decisions. We currently have work underway examining 
the basis for the U.S. Army's conclusions that no cleanup 
actions are needed. The Army has made this decision at over 
4,000 sites. We anticipate further work on these issues in the 
future.
    This concludes my prepared statement. I will be happy to 
respond to any questions you have.
    [The prepared statement of Mr. Wood follows:]

    [GRAPHIC] [TIFF OMITTED] T5724.006
    
    [GRAPHIC] [TIFF OMITTED] T5724.007
    
    [GRAPHIC] [TIFF OMITTED] T5724.008
    
    [GRAPHIC] [TIFF OMITTED] T5724.009
    
    [GRAPHIC] [TIFF OMITTED] T5724.010
    
    [GRAPHIC] [TIFF OMITTED] T5724.011
    
    [GRAPHIC] [TIFF OMITTED] T5724.012
    
    [GRAPHIC] [TIFF OMITTED] T5724.013
    
    [GRAPHIC] [TIFF OMITTED] T5724.014
    
    [GRAPHIC] [TIFF OMITTED] T5724.015
    
    [GRAPHIC] [TIFF OMITTED] T5724.016
    
    [GRAPHIC] [TIFF OMITTED] T5724.017
    
    [GRAPHIC] [TIFF OMITTED] T5724.018
    
    [GRAPHIC] [TIFF OMITTED] T5724.019
    
    [GRAPHIC] [TIFF OMITTED] T5724.020
    
    [GRAPHIC] [TIFF OMITTED] T5724.021
    
    [GRAPHIC] [TIFF OMITTED] T5724.022
    
    Mrs. Morella. Thank you, Mr. Wood. We are going to have a 
vote, but we do have time to hear Mr. Fatz, Deputy Assistant of 
the Army, Environmental, Safety and Occupational Health.
    Mr. Fatz. Madam Chairwoman and members of the subcommittee, 
I am pleased to have this opportunity to appear before you 
today to discuss the Spring Valley formerly used Defense site 
and the GAO report.
    I would like to update you on the progress the Army has 
made over the past year and reinforce our commitment to protect 
the health and safety of the residents of Spring Valley. I 
believe Spring Valley is a safe place to live and raise a 
family. There is no doubt that munitions, both conventional and 
chemical, pose a risk. However, because they are buried and not 
widely scattered, these buried munitions are contained and less 
likely to be encountered by the public.
    It is true that we still need to do additional work to 
identify any remaining buried munitions. To address this 
concern, the Army, EPA and D.C. Health developed a plan to 
evaluate potential ordnance sites, and to identify these sites 
for subsequent action on a priority basis. The Army will take 
whatever action necessary to safely recover any munitions. 
Although arsenic is present in soil at Spring Valley, 90 
percent of the properties tested this past year had arsenic 
below the cleanup level. At the remaining 10 percent of 
properties, the risk is related to long term exposure.
    To deal with this remaining risk, we have a plan in place. 
We know where the arsenic is located. We have communicated the 
hazards to the public, and we are onsite and will be cleaning 
up to community agreed levels. Since the last time I appeared 
before you in July 2001, the Army has made significant progress 
in characterizing arsenic contamination in soil. We adopted a 
priority wide cleanup level and we located and safely excavated 
an historic burial pit on Glenbrook Road. None of this progress 
would have been possible without the support of the community 
and the cooperation between the partners, which include the 
Army, Environmental Protection Agency and the District of 
Columbia Department of Health.
    At the time of the last hearing, and at the request of the 
community, the Army recently initiated a comprehensive effort 
to sample all properties in the Spring Valley community for 
arsenic. To date, 90 percent of the approximately 1,500 
residential and non-residential properties have been sampled. 
We now understand the extent of arsenic contamination in the 
soil. It is important to note that 90 percent of those 
properties we have sampled require no further action. There are 
approximately 160 properties where we need to take removal 
action which will begin next month on a priority risk basis.
    I believe we have made great progress since last year's 
hearing, and have significantly reduced uncertainty about the 
extent of the contamination. The agreement on a property wide 
cleanup level for arsenic was a major milestone for the 
project. Since there is no District of Columbia standard for 
arsenic in soil, the EPA provided the leadership in proposing a 
cleanup level that was both logical and provided a consistent 
level of protection throughout the community. It was adopted by 
the partners and supported by the Mayor's Scientific Advisory 
Panel and the community. As a result, we have an established 
protection level and will begin cleanup on the first group of 
properties next month.
    Our success in this area is due to the active participation 
by each of the partners in a decisionmaking process. I believe 
the relationship between the partners is a model of 
collaboration and cooperation that should be applied at other 
cleanup sites. During the past year, after the extensive 
effort, the Army was successful in locating a World War I 
burial pit that contained a large cache of munitions. The Army 
has safely recovered most of the contents and we are working to 
gain property access to complete the excavation.
    This operation turned out to be much larger than 
anticipated and required considerably more resources and time 
to complete than originally planned. Again, the Army 
demonstrated our commitment to the safety of the community by 
reprogramming resources within the FUDS program to address this 
unforeseen requirement. The Army has committed to funding the 
cleanup at levels that will allow completion over the next 5 
years. Our plan represents a balance between national program 
priorities and the needs of Spring Valley.
    I would now like to briefly provide my thoughts on the GAO 
report on the Spring Valley cleanup. In my review of the draft 
report, I found the report to be a positive testimony to the 
progress and the complexities of the Spring Valley cleanup 
project. I think it is important to note that the uncertainties 
of Spring Valley are inherent to any environmental cleanup 
project where our understanding of site conditions has changed 
so dramatically over time. I believe the Army has approached 
the cleanup of this site in a good faith, systematic manner. 
Where there are uncertainties, the partners have worked 
together to address them and will continue to do so.
    I want to emphasize the No. 1 priority in all decisions 
made at Spring Valley is the health and safety of the community 
and our workers. We value the participation of the Restoration 
and Advisory Board and are striving to keep them informed as 
well as other community members. The residents of Spring Valley 
can count on the Army to keep them well informed on our 
activities there. Throughout the process, we have kept open 
lines of communication through public meetings, newsletters, 
the Corps Web site, direct interaction with residents and other 
public releases of information. We are committed to an open, 
continued dialog on our activities at the site, and appreciate 
the feedback we have received from the community. It is our 
intention to continue our policy that whatever we know about 
the site, we will share with the community in as timely a 
manner as possible.
    Madam Chairwoman, I wish to thank you and the subcommittee 
for its interest and support in our efforts at Spring Valley. I 
look forward to working with you toward a successful cleanup of 
the site. Thank you.
    [The prepared statement of Mr. Fatz follows:]

    [GRAPHIC] [TIFF OMITTED] T5724.023
    
    [GRAPHIC] [TIFF OMITTED] T5724.024
    
    [GRAPHIC] [TIFF OMITTED] T5724.025
    
    [GRAPHIC] [TIFF OMITTED] T5724.026
    
    [GRAPHIC] [TIFF OMITTED] T5724.027
    
    [GRAPHIC] [TIFF OMITTED] T5724.028
    
    [GRAPHIC] [TIFF OMITTED] T5724.029
    
    [GRAPHIC] [TIFF OMITTED] T5724.030
    
    Mrs. Morella. Thank you, Secretary Fatz.
    I am now pleased to recognize Colonel Fiala.
    Colonel Fiala. Good morning, Chairwoman Morella and members 
of the subcommittee. I am Colonel Charles Fiala, the Commander 
of the Baltimore District Corps of Engineers. Thank you for 
your invitation this morning to testify before this committee.
    Last July I testified about our past work at the site. 
Today I would like to discuss our recent progress at the site 
and other FUDS sites in the District of Columbia. In the past 
year, we have made significant progress in the Spring Valley 
project on three fronts. First, our project team has been 
extremely busy defining the scope of DOD contamination at the 
site and removing hazardous material found. Second, the project 
partners, that is, the Corps of Engineers, EPA Region III, and 
D.C. Health have made great strides in our working 
relationship. All three parties agree that their effectiveness 
continues to improve as they move forward in openness and 
cooperation, drawing on the strengths that each brings to the 
fight.
    Last, we have actively solicited the community input on key 
project decisions and increased residents' opportunities to get 
involved. Field work in the last year has greatly reduced the 
uncertainties about the extent and location of arsenic 
contamination at the site. We have nearly completed this site-
wide soil sampling effort developed by the partners at Spring 
Valley in 2001.
    To date, we have sampled 95 percent of the 1,158 
residential properties at the site. On the map before you and 
on the map on the screens of the side of the wall, the area 
shaded in green and light yellow have already been sampled. 
Based on sampling results, we expect to conduct soil removals 
at approximately 160 properties. Besides arsenic, the sampling 
results have not identified any other chemicals of concern at 
the site.
    In addition to delineating the scope of soil contamination, 
we are reducing the hazards associated with this contamination. 
Since last July, we have removed arsenic contaminated soil at 
the American University Child Development Center playground and 
just began soil removal at the adjacent grounds and intramural 
field to address those hazards before the return of children to 
the facility. We are also beginning the first soil removals at 
residential properties with arsenic contamination.
    The Corps has reduced hazards associated with buried 
ordnance and chemical warfare material at the site. We safely 
investigated a large burial pit straddling two Glenbrook Road 
properties. This investigation yielded more than 370 ordnance 
items, a small fraction of which contained chemical warfare 
agents and over 50 sealed bottles, many of which contained 
agents. We conducted this work in a safe manner, ensuring no 
chemicals were released.
    Regarding the status of the project partnership, I am 
confident that the Corps, EPA and D.C. Health will continue to 
forge an effective working relationship. We work together on 
management, technical and community issues. Let me give you a 
few examples of what I mean.
    Last fall, the Corps tested several updated instruments 
used to detect potential ordnance burials. From those results, 
the partners selected equipment for future investigations. 
Concurrently, our partners developed a site evaluation scheme 
to identify and prioritize areas for ordnance investigation. 
This led to the identification of the highest priority areas, 
many of which have now been surveyed with the new equipment.
    As another example, the EPA took the leadership role in 
proposing a significantly protective site-wide arsenic cleanup 
level. In reviewing this proposal, the partners sought input 
from two advisory groups, the D.C. Mayor's Spring Valley 
Scientific Advisory Panel and the Project Restoration Advisory 
Board. Their input proved very helpful in the partners' recent 
adoption of that cleanup standard.
    Established of the RAB highlights the third area of 
progress. Our interaction with the RAB, participation in public 
meetings and our daily conversations with individual residents 
have helped us to fully appreciate the community's diverse 
concerns. Important decisions are now routinely discussed with 
the RAB and interested members of the community. The result is 
that partners now have a better understanding of our community 
issues as we plan work for the future.
    Last, I would like to discuss the status of FUDS in the 
District of Columbia. We have identified 59 sites in D.C. Of 
these, 45 have received a classification of no DOD action 
indicated, NDAI. And 11 sites are ineligible under the FUDS 
program. We have current response activities at three remaining 
sites. They include Spring Valley, Camp Simms and Catholic 
University. All there were NDAIs originally. But this 
classification is always open to reevaluation if warranted by 
new information.
    In conclusion, we have worked hard during the past year to 
reduce the uncertainties associated with Spring Valley FUDS by 
defining the extent of DOD contamination and solidifying the 
partnership's collaboration. To succeed in this challenging 
site, we will continue its synergistic partnership with EPA and 
the District of Columbia, seeking full and open consultation 
with the community.
    As always, we remain committed to aggressively responding 
to the risk associated with the former Department of Defense 
activities at Spring Valley FUDS. I would like to thank the 
subcommittee for the opportunity to speak, and I am prepared to 
answer your questions regarding the Corps of Engineers' efforts 
at the site.
    [The prepared statement of Colonel Fiala follows:]

    [GRAPHIC] [TIFF OMITTED] T5724.031
    
    [GRAPHIC] [TIFF OMITTED] T5724.032
    
    [GRAPHIC] [TIFF OMITTED] T5724.033
    
    [GRAPHIC] [TIFF OMITTED] T5724.034
    
    [GRAPHIC] [TIFF OMITTED] T5724.035
    
    [GRAPHIC] [TIFF OMITTED] T5724.036
    
    [GRAPHIC] [TIFF OMITTED] T5724.037
    
    [GRAPHIC] [TIFF OMITTED] T5724.038
    
    [GRAPHIC] [TIFF OMITTED] T5724.039
    
    [GRAPHIC] [TIFF OMITTED] T5724.040
    
    [GRAPHIC] [TIFF OMITTED] T5724.041
    
    [GRAPHIC] [TIFF OMITTED] T5724.042
    
    [GRAPHIC] [TIFF OMITTED] T5724.043
    
    [GRAPHIC] [TIFF OMITTED] T5724.044
    
    [GRAPHIC] [TIFF OMITTED] T5724.045
    
    [GRAPHIC] [TIFF OMITTED] T5724.046
    
    Mrs. Morella. Thank you very much, Colonel Fiala. Now I 
will turn to Mr. Thomas Voltaggio.
    Mr. Voltaggio. Good morning, Chairwoman Morella and members 
of the committee. I am Thomas Voltaggio, of EPA's Middle 
Atlantic regional office. I'm pleased to be here.
    Today I want to report on the progress of the Spring Valley 
cleanup effort, comment on the GAO report and discuss other 
formerly used Defense sites, or FUDS, in the District, and most 
importantly, offer EPA's judgment on the remaining health risks 
to the residents of Spring Valley.
    Let me address the last issue first. The risk from arsenic 
contaminated soil is now very well characterized. With a few 
residences still to be sampled, I am glad to report that nearly 
90 percent of the homes in the Spring Valley neighborhood do 
not have elevated arsenic levels. None of the elevated levels 
of soil arsenic that have been identified presents an immediate 
threat to human health.
    They must be cleaned up, however, to eliminate the long 
term threat that these soils pose if people were to be exposed 
to them for decades. The first of these residential cleanups, 
as you heard, will begin next month.
    I realize that there is no such thing as a routine cleanup 
of arsenic contaminated soils if they are on your property. But 
I can assure the subcommittee that we have extensive experience 
in the kind of soil remediation that's required here. And the 
technical difficulty in removing these kinds of soils is not 
great.
    The risk from buried chemical weapons is certainly higher, 
but well contained. As these burial pits are identified, they 
are being cleaned up in a way that is safe for both the workers 
and the neighboring community.
    In summary, the vast majority of residents in Spring Valley 
appear to be at no unacceptable risk due to World War I era 
chemical weapons work. Today, there is still a substantial, 
highly site specific risk at ordnance disposal areas. And there 
is a long term risk for about 10 percent of the local 
homeowners because of arsenic contaminated soils. That risk is 
only related to longer term exposure and cleanup will be 
underway shortly.
    I would now like to report on the status of EPA's 
activities at Spring Valley since last July. Since last July, 
the team, consisting of the Corps, EPA and the District, have 
been working on a number of issues that you have identified. 
Firstly, the Corps has conducted an extensive cleanup of a 
burial pit that was identified on Glenbrook Road, including 
hundreds of pieces of ordnance. Tons of contaminated soil in 
the Child Development Center have been removed, and the Korean 
ambassador's residence work is virtually complete. 
Approximately 1,300 properties have now been sampled.
    In short, the actual cleanup of hazards is moving ahead 
with vigor. Indeed, the amount of hazardous substances that 
have been removed in the last 11 months is roughly comparable 
to all of the materials that had been removed in the previous 8 
years.
    I would now like to turn to EPA's comments on the GAO 
report. EPA has not seen the final GAO report, so my comments 
are limited to the draft that we received last month. 
Generally, we believe the draft has done an excellent job in 
presenting the facts. The GAO recognizes the important role of 
the robust partnership that now exists among the Corps, EPA and 
the District. We agree that the partnering effort has allowed 
the cleanup to move ahead with both speed and thoroughness.
    Whereas the arsenic sampling is nearly complete, and we 
have a pretty thorough idea about the scope of the contaminated 
soil problem, the team does not have the same amount of 
certainty regarding ordnance. The GAO is right to emphasize the 
uncertainty associated with that part of the overall effort. 
Additional disposal pits may be discovered. And if they are, 
significant work will need to take place. And significantly 
more work, of course, means more time and more money.
    Finally, the GAO draft report discusses the statutory 
responsibility for the cleanup of FUDS. There is consensus 
among all the participants that it is the Department of 
Defense's responsibility to clean up Spring Valley. Regardless 
of whether that cleanup would occur under the FUDS program 
authority or under EPA's Superfund authority, the Army has 
primary responsibility for the cleanup effort and has to pay 
for that effort.
    I would now like to turn to the status of EPA activities at 
other FUDS in or near D.C. In addition to Spring Valley, there 
are dozens of other FUDS located in the District. EPA has 
reviewed the entire FUDS listed and has identified three sites 
that should receive attention in the near future. These are the 
former Maloney Chemical Lab at Catholic University, Diamond 
Ordnance Fuze Lab, and the C&O Canal near the Chain Bridge. In 
addition, we are reviewing information to locate the site of a 
1-day test of chemical materials referred to as the Conduit 
Road Field Test site in the old Army documents.
    The Corps has funded further investigative work at the 
Maloney Chemical Lab. Because the Army reports that it 
currently has no additional funding for the other two sites, 
EPA plans to take a larger role in investigating them.
    So in conclusion, I would like to say that Spring Valley 
cleanup is moving in the right direction. We will continue to 
assist the partnership and we pledge to assist the efforts to 
investigate FUDS in the D.C. area. I want to acknowledge the 
work of the other organizations that have been involved in the 
cleanup effort: Colonel Fiala, Major Peloquin and the Corps; 
Ted Gordon and the District's environmental team; and the 
various health experts, such as the ATSDR, the Mayor's Science 
and Advisory panel and the District's Department of Health are 
all to be commended.
    Thank you for the opportunity to testify. I will be happy 
to answer questions at the appropriate time.
    [The prepared statement of Mr. Voltaggio follows:]

    [GRAPHIC] [TIFF OMITTED] T5724.047
    
    [GRAPHIC] [TIFF OMITTED] T5724.048
    
    [GRAPHIC] [TIFF OMITTED] T5724.049
    
    [GRAPHIC] [TIFF OMITTED] T5724.050
    
    [GRAPHIC] [TIFF OMITTED] T5724.051
    
    [GRAPHIC] [TIFF OMITTED] T5724.052
    
    [GRAPHIC] [TIFF OMITTED] T5724.053
    
    [GRAPHIC] [TIFF OMITTED] T5724.054
    
    [GRAPHIC] [TIFF OMITTED] T5724.055
    
    [GRAPHIC] [TIFF OMITTED] T5724.056
    
    Mrs. Morella. Thank you, Mr. Voltaggio. Mr. Gordon, we look 
forward to hearing from you. I would like you all to know that 
your testimony in its entirety as presented to the committee 
will be in the record. I know time constraints have prevented 
you from reading all of it. Thank you.
    Mr. Gordon. Good morning, Chairwoman Morella, Ranking 
Minority Member Norton and distinguished members of the 
subcommittee.
    I am Theodore Gordon, I am the Senior Deputy Director for 
Public Health Assurance of the District of Columbia Department 
of Health. I am joined to my left by Dr. Lynette Stokes, who is 
the Chief of the Bureau of Hazardous Materials and Toxic 
Substances for the Department of Health.
    Thank you for the opportunity to present testimony to the 
subcommittee this morning on our agency's role, its authority 
and its responsibilities in the effort to remediate buried 
munitions and other contaminants in the Spring Valley 
neighborhood and other formerly used Defense sites in the 
District of Columbia. My comments will focus on providing you 
an update of the work the District of Columbia Department of 
Health has completed in Spring Valley since your last hearing 
on this subject in July 2001.
    But first I want to mention that the Department of Health 
has had an ongoing relationship with the representatives of the 
U.S. General Accounting Office [GAO], in order to be responsive 
to their questions as quickly as possible and provide as much 
information as we have available to the Department of Health.
    As the Department of Health testified in July 2001, Mayor 
Anthony Williams assembled an independent group, the Spring 
Valley Scientific Advisory Panel, which includes seven 
specialists in the field of epidemiology, toxicology and 
environmental health, and members of the Spring Valley 
community. A Department of Health representative has 
contributed to each of the Spring Valley Scientific Advisory 
Panel meetings by presenting information or responding to panel 
recommendations. The Department has addressed each of the 
Panel's recommendations, received and will address those 
provided by the Scientific Advisory Panel meeting held on May 
29, 2002.
    The Department identified data gaps in our available 
information regarding issues in Spring Valley and acknowledged 
that additional data will be needed and collected to determine 
whether residents were exposed to elevated levels of arsenic in 
Spring Valley. We have followed the guidance from the Mayor's 
Scientific Advisory Panel and will respond to all future 
recommendations to address the concerns in the Spring Valley 
community.
    The Department recognized the importance of the Scientific 
Advisory Panel's recommendations and requested further 
technical assistance from the Agency for Toxic Substances and 
Disease Registry to collect additional data, perform 
biomonitoring and exposure investigations of residents in 
Spring Valley.
    As you are aware, the ATSDR provided similar technical 
assistance at the request of the Department of Health at the 
Child Development Center on the American University campus, 
where there was concern that children may have been exposed to 
arsenic contaminating the soil. The results of the ATSDR test 
indicate that none of the children at the Child Development 
Center had been exposed to elevated levels of arsenic among the 
children who were currently enrolled at the Child Development 
Center.
    The Department of Health and ATSDR met with community 
members to discuss the proposed exposure investigation in 
Spring Valley. We invited the community's participation at the 
very beginning to ensure that Spring Valley residents 
understood the objectives of the investigation and its 
limitations. We publicized the community meetings in our Spring 
Valley newsletter and have provided these newsletters, which 
are also posted on our Web site.
    We have also provided the internet address for the most 
recent information about health effects associated with arsenic 
exposure. The Department of Health recognizes that the 
community must have a clear understanding of each step of the 
process. While we investigate the potential exposure to 
contaminants in Spring Valley, we will continue this process by 
meeting with the community and providing information to the 
residents of Spring Valley as we obtain it.
    For the sake of time, Congresswoman, that summarizes my 
testimony. I would just like to add a few comments. And that 
is, I would like to really commend Dr. Bailus Walker, who is 
the chairman of the Mayor's Scientific Advisory Panel. He has 
done, in my opinion and in the opinion of other scientists and 
clinicians in the Department of Health a truly outstanding job 
in leading us and assisting us with the science, the 
engineering, in helping move forward to assure this community 
that what we're doing is right and correct, based on solid 
science and engineering. It has proved very beneficial to the 
Department of Health.
    In closing, I would just say that our relationship with the 
Corps of Engineers, ATSDR and EPA has been, I guess the word I 
would use is superlative, in our working relationship. We look 
forward to continuing as we bring this matter to closure in the 
future. Thank you.
    [The prepared statement of Mr. Buford, as presented by Mr. 
Gordon, follows:]

[GRAPHIC] [TIFF OMITTED] T5724.057

[GRAPHIC] [TIFF OMITTED] T5724.058

[GRAPHIC] [TIFF OMITTED] T5724.059

[GRAPHIC] [TIFF OMITTED] T5724.060

[GRAPHIC] [TIFF OMITTED] T5724.061

[GRAPHIC] [TIFF OMITTED] T5724.062

[GRAPHIC] [TIFF OMITTED] T5724.063

[GRAPHIC] [TIFF OMITTED] T5724.064

[GRAPHIC] [TIFF OMITTED] T5724.065

[GRAPHIC] [TIFF OMITTED] T5724.066

[GRAPHIC] [TIFF OMITTED] T5724.067

[GRAPHIC] [TIFF OMITTED] T5724.068

[GRAPHIC] [TIFF OMITTED] T5724.069

[GRAPHIC] [TIFF OMITTED] T5724.070

[GRAPHIC] [TIFF OMITTED] T5724.071

[GRAPHIC] [TIFF OMITTED] T5724.072

[GRAPHIC] [TIFF OMITTED] T5724.073

[GRAPHIC] [TIFF OMITTED] T5724.074

[GRAPHIC] [TIFF OMITTED] T5724.075

[GRAPHIC] [TIFF OMITTED] T5724.076

    Mrs. Morella. Thank you, Mr. Gordon. Mr. Theodore Gordon 
talked, as the others did, about the wonderful partnerships 
that evidently have been established in eradicating the Spring 
Valley problem of contaminated sites.
    Now for the questioning, I'll try to confine each of us to 
about 5 minutes. We can go several rounds, and make it far more 
equitable.
    I'd like to start off with GAO. After reading your report, 
Mr. Wood, it's clear that your agency has done a good job in 
making detailed observations concerning the Spring Valley site. 
But the subcommittee would like to know, however, that beyond 
just your observations, which we see in your report, what are 
your recommendations? I don't see any recommendations here.
    Mr. Wood. Madam Chairwoman, as with any project that we 
undertake, we always try to remain alert to the possibility of 
recommendations and in fact, if they are warranted, make them. 
One of the limitations of this study is that it's a review of a 
single site. What characterizes our work more is programmatic 
reviews of broad programs.
    As I mentioned in my opening statement, we do have work 
underway looking at the decisionmaking process that the Corps 
uses at sites nationwide. That report will be coming out within 
the next 2 months. I can assure you, to the extent they are 
warranted, it will contain recommendations.
    Mrs. Morella. Let me also ask you about the report, that in 
1986, the Army searched records and reviewed photographs to 
locate those spots. They concluded that there was no evidence 
of large scale burials at the site. Of course, we've all talked 
about in 1993 they found it, and in 1996. Have you seen that 
report? Have you read that report in 1986?
    Mr. Wood. We have the report, yes, ma'am.
    Mrs. Morella. You do have it?
    Mr. Wood. Yes.
    Mrs. Morella. I would like to have this subcommittee have 
an opportunity to see that report.
    Mr. Wood. No problem. We can provide that.
    Mrs. Morella. OK, so you do have that report. Who owned 
that Glenbrook Road property?
    Mr. Wood. Who owned that property in 1986?
    Mrs. Morella. Yes, in 1986. I think AU was asking for the 
Army to comment or to review and study that area. Something 
flubbed up at that point. Did you notice that at all?
    Mr. Wood. The Army's study was actually initiated by the 
American University.
    Mrs. Morella. AU, right.
    Mr. Wood. Who was planning to embark on some construction 
work. The Army contracted with the EPA photographic lab to do 
that photographic analysis. All of these events happened in 
1986, but I think it was at the end of the year when the final 
results of the Army study were transmitted back to AU.
    Mrs. Morella. What I'm wondering, as you can tell, is was 
there any responsibility in 1986 for not knowing, not being 
able to clearly reflect the fact that there were problems at 
this site?
    Mr. Wood. The question of disclosure and the obligation to 
disclose is a matter that we didn't undertake specifically, 
because there are currently cases in litigation where that is 
the central element. The GAO policy generally is to not 
undertake work if it could possibly influence ongoing 
litigation.
    But the issue that you raise is actually the subject of 
this report that I referred to that will be coming out. The 
Corps didn't use quite the same process then that they use now, 
and the terminology is different. But in essence, the 4,000 
sites that are the subject of a report that will be coming out 
are those that the Corps concluded there was no need to clean 
up the site, based on what they now call a preliminary 
assessment for eligibility. And it's basically a review of 
documentation, a site visit, interviews with current owners. It 
doesn't include typically any kind of sampling of environmental 
media, like soil or water sampling. And it's that very process 
that is the subject of our upcoming report.
    Mrs. Morella. I look forward to seeing that report, or 
having you comment to us about it. Can you tell me what the 
status is of the EPA's criminal investigation?
    Mr. Wood. We checked with the criminal investigation 
division of the EPA, that's the unit of their enforcement 
office. We checked a few weeks ago, and at that time, they 
planned to have a final report by the end of May. Now, they 
haven't let us know that investigation is complete. Typically 
the outcome of that investigation would be a decision to either 
refer a matter to the Justice Department if they think there is 
evidence that an environmental law has been broken, with a 
criminal implication, or not.
    Mrs. Morella. That was the end of May, and this is the end 
of June.
    Mr. Wood. Yes, ma'am.
    Mrs. Morella. So perhaps we can get an update, maybe EPA 
can update us on the status.
    Mr. Voltaggio. Congresswoman, I would be happy to pass this 
question up to the criminal investigation office in EPA. I have 
no direct knowledge in this area. I would be happy to work with 
your staff.
    Mrs. Morella. Thank you. I also understand, I don't know 
whether this would be GAO, I think probably so, when we had our 
last hearing, we also had heard just a few days before that 
American University had filed a suit. I haven't heard anything 
more about it, have you? Does anybody know what the status is?
    Mr. Wood. The claims that we are aware of that are in 
litigation right now are I believe all from individual 
homeowners. I don't think we're aware of any involving AU.
    Mrs. Morella. Somehow it has all disappeared. I remember it 
had been filed.
    Mr. Wood. There had been a number of counterclaims in some 
of these suits. So it may be that AU is involved in one of the 
counterclaims.
    Mrs. Morella. I guess I would then look to maybe Colonel 
Fiala, although I notice my time is up. Let me defer to the 
ranking member and get back to you.
    Ms. Norton. Thank you, Mrs. Morella. Mr. Wood, how likely 
do you believe it is that this site could be finally cleaned up 
within 5 years?
    Mr. Wood. I don't think I have any better crystal ball than 
anybody else. We tried to make clear in our report, there's an 
awful lot of uncertainty associated with that estimate, not 
only the physical uncertainty of not knowing what's buried 
there, but also, it assumes a steady funding stream of 
something on the order of $11 million a year.
    Ms. Norton. Assume that for a moment, assume the funding 
stream.
    Mr. Wood. If the funding stream is there, I would have to 
say, I don't have a basis for knowing whether or not that would 
lead to the cleanup or not, because of the other uncertainties.
    Ms. Norton. So you don't believe we have a good fix on how, 
and I'd want anyone else to jump in here, on the amount of 
contamination yet, so that no judgment can be made on the 
reliability of the 5-year time line? Would somebody else care 
to comment?
    Colonel Fiala. I will comment on that. No. 1, we do know a 
lot more than we did last year. We do know that 160 properties 
contain some level of arsenic contaminated soil. And we have a 
plan, pending a 5-year funding stream, to remove that, based on 
their various risks. We work that with the community and our 
other partners.
    Second, we have about 200 areas of concern that we will go 
back and look at for possible ordnance burial areas. And the 
first 50 of those have been prioritized, based on risk and 
other factors, in conjunction with our partners, in conjunction 
with the community. And we will start work on those later this 
fiscal year.
    The uncertainty that we talk about is as you go through the 
process of looking at these various areas of concern and you 
get into a large pit, burial pit of ordnance, that stretches 
the time out, that stretches the cost of cleanup out. Just like 
for example, the Glenbrook pit that we found last year, we are 
in the midst of continuing the work there, temporarily stopping 
because of access to the adjacent property that we're working 
through. But that takes time, and that takes resources.
    So for us to look at the crystal ball and say, we'll be 
done in 5 years, you've got to make assumptions on how much if 
any are we going to find at these other 200 areas of concern. 
And that's difficult to make.
    Ms. Norton. So do you agree or disagree with the 5-year 
estimate?
    Colonel Fiala. I'm saying, with the information we know 
right now, 5 years is a reasonable time line.
    Ms. Norton. We can't ask you to know what you know now and 
to do more than estimate based on what you know now.
    I guess it is Deputy Secretary Fatz, I was a little 
concerned, in your testimony, when you indicated concerning how 
you decide on priorities, if I recall correctly, I tried to 
write it down, that you look at the balance between the 
national program priorities and Spring Valley. We've already 
had testimony that Spring Valley, this is a city, not a remote 
location. Spring Valley ranks among the 10, it's not only a 
residential neighborhood, it's a densely populated residential 
neighborhood.
    I would like to know what priority Spring Valley has with 
you, given those factors. The notion of balance, especially 
given the fact that FUDS don't tend to be located, so far as I 
know, in such neighborhoods, concerns me.
    Mr. Fatz. We have demonstrated through our funding, 
particularly in the last couple of years, that this is the 
highest priority in the FUDS program. In 2001, we had program 
dollars and we added an additional $4 million in 2001. In 2002, 
at mid-year, we recognized the burial pit and the arsenic 
sampling must continue together, and we added an additional 
$5.2 million at that time.
    One of the best things we can do for a program like this, 
to help Colonel Fiala and his team, is to have a consistent 
level of funding. So in our FUDS guidance for the next 5 years, 
we have programmed out $11 million for each year.
    Ms. Norton. I very much appreciate your stating this top 
priority. I think when the community hears that in the balance 
that Spring Valley will not be outranked, that's very important 
for the stability of the neighborhood and for whatever we can 
do to take uncertainty out of the picture for the community. I 
see my time is up, Madam Chair.
    Mrs. Morella. The question I would ask all of you, are the 
residents and those who work in Spring Valley safe? Everyone is 
pausing to respond to that. Would you like to start it off, Mr. 
Wood?
    Mr. Wood. I think that's certainly the question that 
everyone would like to know the answer to. And I don't have a 
direct answer, I'll just be up front about that. I would say 
that based on the work that we've done, if I were a resident 
there, and I am a resident of the District of Columbia, I guess 
I would take the most comfort from know that there's a good 
institutional framework in place, including the Mayor's 
Advisory Panel, to give the best advice, to make sure that as 
health risks are identified, that they're dealt with as quickly 
as possible.
    Mrs. Morella. Mr. Fatz.
    Mr. Fatz. I believe that Spring Valley is a safe place to 
live. And as Mr. Wood said, it is our obligation to move 
quickly when there is a risk identified, particularly on the 
buried munitions. We have shown that in the last year, that 
we've done more there than, as our EPA colleague has stated, in 
the previous 8 years.
    Mrs. Morella. Colonel Fiala.
    Colonel Fiala. Ma'am, we consider Spring Valley to be a 
safe residential neighborhood. We have issues with munitions 
and arsenic in the soil, as I testified. We have a good handle 
on the extent of arsenic contamination across the community. We 
know where the high risks are, and we are communicating those 
risks with EPA, with our partners and to the community and the 
residents.
    In addition, while we don't know the extent of buried 
munitions, we have a good idea of areas of concern. Nowhere has 
there been any reports of injuries related to munitions in 
Spring Valley. So the overall feeling of the team is that it 
does not pose imminent risk.
    Mrs. Morella. Mr. Voltaggio.
    Mr. Voltaggio. Yes. Let me add to that, without repeating, 
because I do agree with the statements of the gentleman to my 
right, but in addition to that, it is probably the best 
characterized neighborhood in the country. Every residential 
property and every non-residential property has been sampled, 
95 percent complete, but it will be totally completed soon. And 
as a result of that, people know what the contamination level 
is, if any, in their homes. That to me makes it safer than most 
anyone else's home where such sampling has not happened.
    In my own home, I have no idea what the levels are. It was 
built on an orchard. Perhaps there is contamination there, 
perhaps there isn't. This neighborhood, what the residents can 
know is that they have been sampled, almost 90 percent of them 
have no problems with regard to elevated levels of arsenic. 
That to me is a very comforting thought.
    Mrs. Morella. So 10 percent do, as you said in your 
testimony. So I think all of you, you're implying too, that 
it's not 100 percent. But we're getting there. We're checking. 
I'd like to give you a chance, Mr. Gordon.
    Mr. Gordon. Well, I guess I'm going to be the oddball and 
say that I don't think you can really say that it's safe. But 
from a public health standpoint, we can say that the risk is 
low, based on the most available scientific data that we have 
today.
    Mrs. Morella. I note that the GAO report on page 3 states 
that the partners have disagreed over the immediacy of the 
health risk posed by arsenic contaminated soil. Given the 
sample results in the ATSDR, how would you characterize the 
remaining environmental and health risks? Are there precautions 
that residents should take? Mr. Wood, I'd start with you, if 
anyone else wants to comment on it.
    Mr. Wood. The language in our report referred to the 
process of setting the site-wide soil standard for arsenic. I 
guess I would leave it to the health experts just how to 
characterize that level of arsenic in the soil.
    Mrs. Morella. And that gets to another question I have 
about the parts per million of arsenic to soil, the ratio. I 
notice the ratio is 20 parts per million for arsenic 
contamination determined as a safe level at the Spring Valley 
site. How does this compare to natural background levels in the 
District of Columbia? And how do the numbers compare to other 
contaminationsites in the District of Columbia? You're anxious 
to start on that, I can tell, Mr. Voltaggio.
    Mr. Voltaggio. Yes. The Corps did an extensive background 
study with regard to arsenic levels in the District and outside 
of the Spring Valley area. The average is roughly five parts 
per million. If you look at a statistical 95 percent confidence 
of what the number would be it is that all the levels, we're 95 
percent sure that all the levels are below 13 parts per 
million.
    We have found background levels, individual background 
levels having nothing to do with Spring Valley, up to 18 parts 
per million. So that was our characterization of background, is 
if you look at a mean, if you look at a 95 percent confidence 
level, and you look at what the highest background level would 
be. So we know the backgrounds are around less than 20 parts 
per million, less than 18 most likely.
    When we developed the cleanup level in a very consultative 
process with the Army and with the District, we looked at what 
the health levels would be, what were the levels below which we 
would not have health effects. We looked at background levels 
and we found a number that seemed to be a good risk management 
decision with regard to what is a proper point at which to say, 
below that, a, there isn't any risk of any significant nature, 
and b, it's pretty close to what background level would be. 
That's how we came up to 20.
    This is a judgment, this is a risk management decision. 
When you have a judgment on something as important as this, 
it's very important to get buy-in from as many scientific as 
well as community people as we can. That's why we went to the 
Restoration and Advisory Board with that number, got their 
input. We went to the District, of course, the District went to 
the Advisory Panel. This is why we feel comfortable that we had 
a very inclusive process that made sure that all of the 
stakeholders were involved, and we felt comfortable that the 
science and public policy considerations brought us to a number 
that we all can live with.
    Mrs. Morella. So there is a variation, is what you're 
saying?
    Mr. Voltaggio. Sure. Background could be, I mean, it varies 
all over based upon the individual nature of the soils and the 
activity that was done, other than just Spring Valley type of 
activity.
    Mrs. Morella. So you use some criteria, but you also have 
the arbitrary element that enters into that, too?
    Mr. Voltaggio. Yes.
    Mrs. Morella. I'd like to hear from Mr. Gordon on that 
issue.
    Mr. Gordon. We handed this off to the Mayor's Scientific 
Advisory Panel. And they concurred with the U.S. Environmental 
Agency that 20 parts per million was an acceptable level with 
minimal risk. We also know in the District that arsenic was 
used in pesticides, not just in the city, but it was sprayed. 
And there are considerable background levels that vary that we 
have encountered in the District of Columbia. We have found 
arsenic present in the proposed site for the World War II 
memorial, we found it in the soil there. And we found it in 
other locations, not that's associated with Spring Valley.
    But arsenic is something that's fairly ubiquitous in the 
city, and it's something that we have to deal with in terms of 
cleanup and certainly in terms of protecting our groundwater 
and our soil. But again, we concur with the scientific 
advisory, the Mayor's Advisory Panel recommendations on this, 
and EPA provided extensive information to the panel on how they 
came up with the standards. So we consider it an acceptable 
standard.
    Mrs. Morella. It' s just kind of worrisome in a way when 
you think about how it may vary from place to place, and you 
wonder about what goes into making that kind of decision.
    Mr. Voltaggio. Madam Chairwoman, the background varies from 
place to place. But what is on those properties we have 
sampled, and we know what it is, we know that the levels are, 
what the cleanup level tell us is once you find it, what do you 
clean it up to. So actually, I don't think the residents ought 
to feel that they don't know what the situation is at their 
residences as a result of this massive effort the Corps has 
done over the past year. We have sampled them all, 95 percent 
of them, and we will get them all sampled, and they will know 
what is there.
    Mrs. Morella. And what to do about it. Ms. Norton.
    Ms. Norton. Thank you, Mrs. Morella. The most important 
issue raised by the contamination are the health issues. The 
information on the health issues has been the most 
disappointing to me, in particular. Certain of the health 
issues have no way to be put to rest immediately because they 
involve conditions that develop only over a period of years.
    My own concern has been with the epidemiological studies. 
At first, it appeared that there was, if I recall correctly at 
the last hearing, there was a study without a control group, I 
believe. Then there was a study done with a control group in 
Potomac, Maryland, I believe. The testimony is that on the one 
hand, comforting, because at least as of now, there is no 
effect in one study we're told.
    What I don't understand is why there would be any study 
apparently involving some cancers that was too small for you to 
draw conclusions. Why wasn't the study sufficiently large so 
that at least, with respect to what we can know, we could say 
what the answer is with respect to that group of cancers? When 
will we have a definitive, as definitive a epidemiological 
study as can be done at this time?
    Dr. Stokes. My name is Dr. Lynette Stokes. I am Chief of 
the Bureau of Hazardous Material and Toxic Substances. What you 
refer to is the incidence and mortality review of Spring Valley 
for which Spring Valley was compared to an initial control 
group and the U.S. standard for particular cancers.
    The cancers that were investigated were those that are 
identified in the literature for exposure to arsenic. We didn't 
just decide on certain cancers, we looked at those that we know 
in the literature have been observed and are associated with 
arsenic exposure.
    You mentioned another control group was used. At the 
recommendation of the Spring Valley Scientific Advisory Panel, 
it was suggested that an additional control group be used. We 
compared those arsenic associated cancers with Potomac, 
Maryland. Both of those comparisons showed that there were no 
excesses of cancers in Spring Valley, comparing them to 
national rates and comparing them to either one of those 
control groups.
    Ms. Norton. What is the group that was too small to make 
the appropriate comparisons?
    Dr. Stokes. Any time for the period that the incidence 
trend analysis was completed was a 12 year period. Many of 
these cancers are very rare. And over that 12 year period, 
there were few that were observed. That's the small number 
you're speaking of.
    Ms. Norton. Residents of course are concerned about 
drinking water, especially since this area is close to 
Delcarlia Reservoir. We understand that you have over this 
period, indeed before this period, been testing for arsenic. Is 
there arsenic in the water?
    Dr. Stokes. No. We have observed for the last years of 
water, potable water data, that is delivered to the homes in 
Spring Valley. None of that data for the 20 year period of time 
shows any elevation in arsenic.
    Mr. Gordon. If I might further add, we have also gathered 
information from Tom Jacobus, who heads the Delcarlia water 
treatment facility, as well as the Water and Sewer Authority, 
headed by Harry Johnson. There is absolutely no evidence at all 
of any arsenic in our drinking water system. We can give our 
community total assurance that their water is safe and free of 
any arsenic contamination.
    Ms. Norton. For the first time, during the last hearing, we 
learned that there were FUDS outside of Spring Valley. We have 
testimony here today from Mr. Fiala that there are 59, there 
were 59 FUDS sites in the District of Columbia, 45 no action 
indicated. Let me ask you about the three sites where you are 
conducting response activities. Spring Valley we know about of 
course. Camp Simms and Catholic University, what is the status 
of your work on those other two sites? What have you found?
    Colonel Fiala. Yes, ma'am. We've made considerable progress 
on going back to Camp Simms. We completed another ordnance 
investigation last fiscal year and found no additional ordnance 
at Camp Simms. Additionally, we came back and did some soil 
sampling at some areas that our partners had some concerns 
about at Camp Simms. And we have a draft report that is being 
staffed with our partners on results of that investigation.
    At Catholic University, we intend to get started on an 
investigation at the Maloney Lab later this year.
    Ms. Norton. Particularly when new names are thrown out, 
Camp Simms, Catholic University, there are of course concerns 
in those communities. When will the Catholic University 
investigation be done? Having started it yet, when do you 
anticipate being finished with it?
    Colonel Fiala. We start an initial investigation this fall. 
Based on what we find in that initial investigation, we will 
either decide no further action or continue with----
    Ms. Norton. And when will you know that? When will the 
initial investigation tell you whether you need to proceed or 
not?
    Colonel Fiala. Probably in November or December this year.
    Ms. Norton. I wish you'd let this committee know as soon as 
you know one way or the other.
    Colonel Fiala. Yes, ma'am.
    Ms. Norton. Finally, if I may, I know my time is up, 
complete this subject matter, in Mr. Fiala's testimony he says, 
the remaining 11 sites are ineligible for cleanup under the 
FUDS program. Why are they ineligible? What kinds of sites are 
we talking about?
    Colonel Fiala. Yes, ma'am. Six of them were duplicates of 
others just identified as different activities. Three have no 
historic records and two are active Department of Defense 
sites.
    Ms. Norton. Would you explain what it means to be active? 
Do you mean the Department of Defense is still doing stuff 
there?
    Colonel Fiala. Active installations.
    Ms. Norton. In the District of Columbia?
    Colonel Fiala. Yes, ma'am. We have----
    Ms. Norton. What are those sites? Are they bases?
    Colonel Fiala. Anacostia Naval Station, Anacostia, and the 
Naval Research Laboratory at Belleview.
    Ms. Norton. I see. Thank you very much, Madam Chair.
    Mrs. Morella. You know, I wondered if you could probably 
give us more insight in terms of the other three sites that 
were in the District of Columbia, maybe even looking into the 
Conduit Road site, which is in Montgomery County, the Maloney 
Chemical Lab at Catholic, Diamond Ordnance Fuze Lab and the C&O 
Canal near the Chain Bridge area. What's the schedule for 
identifying the materials and the remediation?
    Colonel Fiala. Well, again, we have a draft report on Camp 
Simms right now. We will start an initial investigation of 
Catholic University Maloney Laboratory this fall. At the 
Diamond Ordnance Fuze Lab, as Mr. Voltaggio stated, we don't 
have any other additional information to warrant going back. 
But EPA is doing some additional studies. Once we get those 
additional studies, or additional information, we'll make a 
determination whether or not we need to proceed with any other 
activities.
    In the Conduit Road activity, or 1 day test site, we 
understand that the Navy at Carderock is in their normal 
business of doing installation and remediation work at an 
active installation, the Navy is doing some study and 
characterizing activities there.
    Mrs. Morella. Are there any other sites in suburban 
Maryland that you all know of or are looking at?
    Colonel Fiala. Yes, ma'am, there are two active Nike sites, 
one in Rockville and one in Olney, at which--down the road--we 
will schedule some activity.
    Mrs. Morella. Mr. Voltaggio, did you want to comment on 
that?
    Mr. Voltaggio. Yes. We are really acting as a team here to 
the extent that the Army is doing some work, and we can 
supplement their investigative work with assessments of our 
own, we will do so. We have agreed to work with them through 
the summer to work on the three sites that we've identified, 
the Diamond Fuze, C&L and Anaconda Road, and any other site 
that may come up through the investigations, through the Army 
archives and through the information where it appears that 
there is an immediate need, we will be happy to place our 
inspectors and investigators at the disposal of the team in 
order to assess whether there is any immediate types of 
assessment work that need to be done.
    So we are working through this together, and we are working 
through the summer hopefully the three that I identified in my 
testimony to be able to better characterize, to know whether 
there is no further action needed or whether further action is 
needed. I expect that between us, by the end of the summer we 
will have identified these higher profile kinds of FUDS sites. 
There are dozens of other FUDS that were all Civil War sites 
that are lower in the priority scheme.
    So we want to use a prioritization scheme that recognizes 
the association with Spring Valley or any other reason that it 
would bring it to the top of the heap. So we are working 
together to make that happen as quickly as we possibly can. 
That will be our major activity this summer here.
    Ms. Norton. Good. Thank you. Keep us posted.
    I guess my final question at this point, because of time, 
is to Mr. Gordon. It was during your testimony at last year's 
hearing on Spring Valley that you mentioned that the D.C. 
Health Department was partnering with EPA in the cleanup of the 
Navy Yard, which is the District of Columbia's only Superfund 
site. I wonder if you would compare the Department's 
experiences working with EPA in the Navy Yard site with its 
experiences with the Corps of Engineers on the Spring Valley 
site. Are there lessons that we can learn from that experience 
that could be useful to the remedial activities?
    Mr. Gordon. Congresswoman, let me just say this. There have 
been very contentious discussions. The Navy Yard, we are a full 
partner under the designation as a Superfund site. We have had 
many acrimonious discussions. There have been disagreements, 
there have been points of interest that we didn't agree on. But 
it has been a very professional, it has been what I would again 
characterize as an outstanding working relationships. We have 
had similar activities with the Corps and EPA on Spring Valley.
    But that's what this process is about. We have a 
responsibility to the residents of this city to assure that 
their public health is safe. And we are going to do everything 
we can to reach the highest degree of confidence that we can to 
ensure that. That may involve some very technical and 
acrimonious debates on how we proceed.
    But in the final analysis, I would say that both 
experiences are good. Both experiences are highly professional, 
highly technical, and more importantly, most respectful of the 
District from the Federal agencies. And they have worked with 
us. It's not a bully pulpit type of atmosphere. It is really a 
professional atmosphere that I would characterize as absolutely 
outstanding.
    Mrs. Morella. I'm glad to hear that. Although you had also 
commented there was no question with regard to arsenic in the 
District's drinking water. The Department asked the Corps 
Baltimore District Office to test the groundwater in the Spring 
Valley area to determine if it had any arsenic contamination. 
Has the Corps preformed these tests and how often is the 
drinking water tested and for contaminants? And is the public 
given the results?
    Colonel Fiala. Ma'am, we have not yet tested the 
groundwater issue. I think you're referring to the groundwater 
issue at Spring alley. We plan to do that down the road. But 
because of this priority of risks, we feel it's a very, very 
low risk and that will happen down the road. Again, I've got to 
say that I run the Washington Aqueduct, Tom Jacobus works for 
me. We pull water out of the Potomac River to provide drinking 
water to the District of Columbia. And again, I go back to what 
has been testified previously, there has been no identification 
of arsenic in the drinking water over 20 years.
    Mrs. Morella. When you do test the groundwater, will you be 
providing the results to the public? I think it's important the 
public be advised.
    Colonel Fiala. Yes, ma'am, that's part of the CERCLA 
requirements.
    Mrs. Morella. Thank you. I will now defer to Ms. Norton for 
any questions.
    Ms. Norton. Thank you, Mrs. Morella. Just a couple more 
questions. We've been talking about arsenic here, because we 
know that is the major contaminant. Has there been any evidence 
of significant exposure of residents to other contaminants like 
mustard gas, lucite and the like?
    Colonel Fiala. We have no incidence of any exposure to any 
chemical material, to either the residents or the significant 
work force that we contract and we have onsite.
    Ms. Norton. You've tested for that, I take it?
    Colonel Fiala. Ma'am, when we go in to open a potential 
burial site, there are significant safety requirements that are 
laid out, that are reviewed not only by our partners, but are 
reviewed by the ordnance and chemical experts in the Department 
of the Army before we go to work.
    Ms. Norton. So we're dealing with arsenic here, and arsenic 
only, for the most part. One more question, it really has to do 
with the role of EPA. And I go back to the GAO report that 
notes that in 1995, when the Corps concluded that no further 
action was necessary, and here I'm quoting from the GAO report, 
EPA FEwas involved in the oversight of the cleanup and did not 
object to the decision made at that time.'' What I want to know 
is what the exact role of the EPA is. Do existing regulations 
or law require the EPA to concur in or otherwise dissent from 
the Corps' decision and take any action of any kind? What 
exactly is the role of the EPA in this matter and what role 
should we conclude the EPA will be playing now, given the role 
it played in 1995?
    Mr. Voltaggio. In 1995, from 1993 to 1995, EPA considered 
this site as an ordnance disposal site where the authority, the 
responsibility and the expertise resided with the Department of 
Defense. Because there were obvious environmental concerns with 
regard to any removal of ordnance, we were at Spring Valley to 
assure the public health with regard to any airborne 
contamination or surface contamination that might have resulted 
from the excavation and the disposal of the ordnance.
    Ms. Norton. You were asked to do that, but was that a 
matter of your regulations, the Corps' regulations or of 
Federal law?
    Mr. Voltaggio. We were acting under the authority of 
Superfund in the emergency response program to provide that 
service. But because of our expertise with regard to 
environmental contamination, we were brought on as part of that 
team as well. It was never a case of the Army asking for our 
bona fides. We went in there, we had our expertise, they had 
theirs, we worked as a team in order to determine what needed 
to be done.
    But it was under the authority of CERCLA. We have the 
authority to take emergency response actions under Superfund. 
But we weren't down there to take emergency response actions 
unless we thought it was necessary as a result of inappropriate 
activity by the Corps. We did not find any inappropriate 
activity by the Corps. We were a part of the team and we made 
decisions as a team in 1995.
    After 1995, it was recognized that this site changed its 
character. It was not just an ordnance disposal site. It was 
now an ordnance and disposal site that also had arsenic 
contamination. And we then, as a result of our expertise and 
authorities under CERCLA to investigate, to take any emergency 
actions if they were necessary, stepped up and became a much 
more active partner with regard to advising what the 
appropriate cleanup processes and procedures should be with 
regard to the arsenic. The overall responsibility has always 
been with the Department of Defense, through the Army, through 
the Corps, for supplying the money and the manpower to do the 
job. They have the authority, they have the responsibility.
    So it is not an easy question to answer, Congresswoman, 
because it was a team response. If and when we came to a 
situation that we were dissatisfied, then we could go back and 
determine what actions EPA could take under CERCLA. As it 
happened, it was not necessary. It was clear from the legal 
authority that the Corps had the responsibility and we then 
played an advisory role, a consulting role, a team role.
    Ms. Norton. Let me caution everybody at the table about 
teamwork. I'm very pleased to see the teamwork that is going on 
here. I don't think we can proceed without the cooperative 
effort that I commend you on having developed.
    But I want you to be clear that I don't regard the 
partners, please use that word very advisedly for purposes of 
working together on what has to be done together, you must be 
partners. But I regard the District, the Corps, and the EPA as 
checks on one another. A team, when one is involved in 
contaminated substances, can be a dangerous concept indeed. 
Because when you're a member of the team, then of course you 
want to be involved in teamwork. And that has to happen most of 
the time. But the only way that I will have confidence in the 
team is if every member of the team regards herself as a check 
on the other members of the team, obligated to speak not only 
to members of the team but to speak out publicly when they 
dissent or have reasons to have doubts about what other members 
of the team are doing. Thank you very much, Mrs. Morella.
    Mrs. Morella. Thank you, Ms. Norton. I agree with the 
concept of checks and balances. I want to thank the panel. I 
would like to allow the subcommittee to present further 
questions that we did not have a chance to offer to you. I hope 
that you will give us the benefit of any of the reports that 
you have alluded to during this year. So thank you very much 
for being with us, thank you for your patience in going through 
all of the questioning, your testimony. We look forward to 
hearing from you again.
    And now the second panel will come forward. Actually it's 
the third panel. Real Admiral Robert C. Williams, Director, 
Division of Health Assessment and Consultation, the Agency for 
Toxic Substances and Disease Registry. Dr. Bailus Walker, Jr., 
who is the Chair of the Mayor's Spring Valley Scientific 
Advisory Panel. Sarah Shapley, who is the Co-Chair of the 
Spring Valley Restoration Advisory Board. William Harrop, 
Spring Valley-Wesley Heights Citizens Association.
    Again, before you get seated, may I ask you to stand to 
swear you in. If you would raise your right hand.
    [Witnesses sworn.]
    Mrs. Morella. Thank you. An affirmative response will be so 
recorded. Thank you very much for being so patient as we went 
through the first two panels. Now, Rear Admiral Williams, we're 
delighted to hear from you, sir, and thank you for being here.

STATEMENTS OF REAR ADMIRAL ROBERT C. WILLIAMS, P.E., ASSISTANT 
SURGEON GENERAL, U.S. PUBLIC HEALTH SERVICE, DIRECTOR, DIVISION 
    OF HEALTH ASSESSMENT AND CONSULTATION, AGENCY FOR TOXIC 
SUBSTANCES AND DISEASE REGISTRY, U.S. DEPARTMENT OF HEALTH AND 
   HUMAN SERVICES; BAILUS WALKER, JR., CHAIRMAN, DISTRICT OF 
COLUMBIA MAYOR'S SPRING VALLEY SCIENTIFIC ADVISORY PANEL; SARAH 
 SHAPLEY, CO-CHAIR, SPRING VALLEY RESTORATION ADVISORY BOARD; 
AND WILLIAM C. HARROP, PRESIDENT, SPRING VALLEY-WESLEY HEIGHTS 
                      CITIZENS ASSOCIATION

    Admiral Williams. Good morning, Madam Chairwoman and 
members of the subcommittee.
    I am Bob Williams, Assistant Surgeon General, U.S. Public 
Health Service, and Director of the Division of Health 
Assessment and Consultation at ATSDR. Thank you for the 
opportunity to once again provide you and the subcommittee with 
testimony on the activities of the Agency for Toxic Substances 
and Disease Registry within the Spring Valley Community.
    ATSDR, an agency of the U.S. Department of Health and 
Public Services, is the lead agency responsible for 
implementing the health related provisions of the Comprehensive 
Environmental Response Compensation and Liability Act. ATSDR 
has been working with the area residents of Spring Valley, the 
Mayor's Spring Valley Scientific Advisory Panel, the Spring 
Valley Restoration Advisory Board, the District of Columbia 
Department of Health, U.S. Environmental Protection Agency and 
the U.S. Army Corps of Engineers to assess the public health 
impact of environmental contamination with hazardous 
substances.
    In December 2000, testing conducted by the U.S. Army Corps 
of Engineers detected elevated concentrations of arsenic in 
soil samples from the playground of the Child Development 
Center at American University. The District of Columbia 
Department of Health asked ATSDR to assess potential exposures 
to arsenic contaminated soil.
    On February 1-2, 2001, ATSDR conducted an exposure 
investigation for children enrolled at the Center and for 
teachers and staff. ATSDR staff collected hair samples from 28 
children and 4 adults and analyzed the samples for arsenic. 
Detectable levels of arsenic were measured in hair samples from 
8 of the 32 participants at concentrations that ranged from 0.1 
to 0.14 parts per million. All the hair arsenic levels detected 
in the participants were within ranges reported for unexposed 
populations. In the other 24 hair samples, arsenic was not 
detected.
    ATSDR concluded that none of the participants had hair 
arsenic levels that indicated unusual exposure to arsenic.
    The District of Columbia Department of Health also asked 
ATSDR to evaluate potential exposure to arsenic in residents of 
contaminated properties in Spring Valley. In response to this 
request, ATSDR conducted a second exposure investigation during 
March 13-15, 2002. Residents who lived at the 20 homes with the 
highest soil arsenic concentrations were invited to 
participate. A total of 32 people, 23 adults and 9 children, 
from 13 homes, volunteered.
    ATSDR staff collected urine and hair samples from the 
participants as well as house dust samples from their homes. 
The urine samples were analyzed for both inorganic forms of 
arsenic and for total arsenic. These two separate analyses for 
arsenic can help to distinguish between dietary sources of 
arsenic, primarily from fish and shellfish, and environmental 
sources.
    ATSDR provided the participants with their individual test 
results and presented the findings to the Mayor's Spring Valley 
Scientific Advisory Panel on May 29, 2002. Urine arsenic 
levels, which are a good measure of recent arsenic exposure, 
were generally low. These levels would not be expected to cause 
any health problems. Only three of the individuals tested had 
reportable inorganic arsenic in their urine, with levels 
ranging from 10 parts per billion to 15 parts per billion. 
Levels below 20 parts per billion of inorganic arsenic usually 
indicate no significant exposure.
    The levels of total arsenic in participants' urine samples 
ranged from non-detected to 210 parts per billion. Total 
urinary arsenic reflects exposure to inorganic arsenic, plus 
organic forms of arsenic from foods such as fish and shellfish. 
Organic forms of arsenic are relatively non-toxic. It is not 
unusual to find total urinary arsenic in the general population 
at these levels.
    All individuals tested had hair arsenic levels between non-
detected and 0.73 parts per million, the average being 0.1 
parts per million. Levels below one part per million usually 
indicate no significant exposure. In summary, the hair arsenic 
levels show normal levels of exposure. These levels would not 
be expected to cause any health problems.
    Household dust was tested in 13 homes. Levels of arsenic 
ranged from non-detected to 63 parts per million. It is evident 
from the participants' hair and urine tests that these dust 
levels do not appear to be causing elevated inorganic arsenic 
levels in the participants. However, the findings do suggest 
that yard soil contaminated with arsenic may be tracked into 
homes and could increase the potential for exposures. The 
report of the exposure investigation will undergo scientific 
review and ATSDR will release that report of the findings later 
this year.
    ATSDR will continue to work with the other Federal, State, 
local health and environmental agencies and the residents to 
resolve questions and issues relating to the public health 
impact of environmental contamination in Spring Valley. Further 
ATSDR involvement, including additional biomonitoring to assess 
exposure to site contaminants, will be decided after 
discussions with the Mayor's Spring Valley Scientific Advisory 
Panel, the Spring Valley Restoration Advisory Board, the 
District of Columbia Department of Health and the local 
community.
    Madam Chairwoman, this concludes my testimony. I would be 
happy to answer questions you or your fellow subcommittee 
members may have.
    [The prepared statement of Admiral Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T5724.077
    
    [GRAPHIC] [TIFF OMITTED] T5724.078
    
    [GRAPHIC] [TIFF OMITTED] T5724.079
    
    [GRAPHIC] [TIFF OMITTED] T5724.080
    
    [GRAPHIC] [TIFF OMITTED] T5724.081
    
    [GRAPHIC] [TIFF OMITTED] T5724.082
    
    [GRAPHIC] [TIFF OMITTED] T5724.083
    
    [GRAPHIC] [TIFF OMITTED] T5724.084
    
    Mrs. Morella. Thank you very much, Admiral Williams. I'm 
now pleased to recognize Dr. Bailus Walker, Jr.
    Mr. Walker. Thank you, Chairwoman Morella, and thank you, 
Ranking Member Norton. I'm Bailus Walker, Chairman of the 
Mayor's Scientific Advisory Panel on Spring Valley. I am 
chairman of the Committee on Toxicology of the National Academy 
of Sciences.
    I appreciate the invitation to appear before you. My 
comments will focus on the status of the recommendations that 
the panel has made to the agencies involved.
    Let me pause here and commend your staffs. When you were 
not able to attend the meetings of the Scientific Advisory 
Panel, your staffs came and sat through the scientific 
discussions. These are very complex issues, epidemiology, 
toxicology, very complex. And I can say without contradiction 
that I think your staff now is probably the most knowledgeable 
staff on this Hill with respect to environmental toxicology and 
epidemiology.
    Let me ask that my entire statement be included in the 
record, including the matrix which we have developed that 
summarizes the recommendations that we have made over the 
period of our existence and the responses to the respective 
agencies.
    Mrs. Morella. Without objection, so ordered.
    Mr. Walker. Thank you. Let me move to what I think are the 
issues that tend to permeate these discussions. And I think 
Congresswoman Norton has illuminated these time and time again. 
I think the first question is, are there environmental 
contaminants in the Spring Valley environment? The answer is 
yes. The most prominent one is arsenic. The analysis presented 
to the panel by the Corps of Engineers would suggest that 
arsenic is the prominent contaminant, and it is the contaminant 
upon which most attention should be focused.
    The next question is, is there exposure? I want to 
distinguish between two types of exposure: potential exposure, 
which is what's in the soil, and real exposure, what actually 
gets into the human body. And I would add further that for real 
exposure, probably the most important determinant of real 
exposure is the activity of the individual, the extent to which 
he or she plays in the yard, the extent to which he or she 
works in the yard, etc.
    The third question is, what is the evidence with respect to 
real exposure? And I will not repeat what Rear Admiral Williams 
has said. I think the evidence he has presented is clear and 
convincing. Our committee has reviewed that evidence. We do 
suggest that there be further biomonitoring, meaning further 
urine samples and hair samples. One of the reasons that we want 
this additional work to be done is that we want our conclusions 
to be based on a solid base of information, statistical power, 
as we call it in the field of environmental epidemiology. And 
we also wanted evidence from residents during the period of 
maximum outdoor activity.
    The other question that permeates this discussion is, what 
are the health effects? Dr. Stokes came before our panel at the 
last meeting and indicated that members of the community had 
reported to her a whole array of complaints, an array of 
symptoms that they suspected may be related to the exposure to 
contaminants. We did not discount this anecdotal information. 
But it was our view that to be scientifically and clinically 
valid, we needed to hear from the clinicians. If people have 
complaints, by and large, in this community, they would go and 
see a physician or they would go to a health care facility.
    We believe it important to have from that health care 
facility or that clinician or that physician his or her 
assessment of that person reporting symptoms. What does the 
laboratory data show? What does the physical examination show? 
More than likely, the physician would have a history of that 
patient. That kind of information would enable us to get a 
fairly sound scientific handle on what the health effects in 
that community may be.
    We've recommended that in our last report, and it is our 
understanding that the Department is moving forward to ensure 
that kind of information is made available. I would indicate 
that what the panel is trying to do is make sure that we have 
as much information as we can with respect to exposure, with 
respect to health effects, before we draw any conclusions.
    The other issue has to do with cleanup, and you've heard 
from the previous panel with regard to the 20 parts per 
million. We believe that based on the data presented to us, 
supporting data presented to us, that the 20 parts per million 
is an appropriate clean-up level. We get into the question of 
what is safe and unsafe. We're not suggesting that 20 is safe, 
we're not suggesting that 19 would be safer. We're simply 
saying that based on the evidence that we've read and presented 
to us, as well as our own analysis, the respective members of 
our panel have conducted their own analysis, that 20 parts per 
million would appear to be a level at which there would be very 
low risk of disease and dysfunction.
    Those are the questions and issues that are within the 
purview of our panel. We did not deal with cost issues, we did 
not deal with legal issues. Our mandate from the Mayor, our 
directive from the Mayor, was to stick solely with the 
scientific issues.
    Madam Chairwoman and Ranking Member Norton, that concludes 
my comments and I will be delighted to respond to any questions 
you may have.
    [The prepared statement of Mr. Walker follows:]

    [GRAPHIC] [TIFF OMITTED] T5724.085
    
    [GRAPHIC] [TIFF OMITTED] T5724.086
    
    [GRAPHIC] [TIFF OMITTED] T5724.087
    
    [GRAPHIC] [TIFF OMITTED] T5724.088
    
    [GRAPHIC] [TIFF OMITTED] T5724.089
    
    [GRAPHIC] [TIFF OMITTED] T5724.090
    
    [GRAPHIC] [TIFF OMITTED] T5724.091
    
    [GRAPHIC] [TIFF OMITTED] T5724.092
    
    [GRAPHIC] [TIFF OMITTED] T5724.093
    
    [GRAPHIC] [TIFF OMITTED] T5724.094
    
    [GRAPHIC] [TIFF OMITTED] T5724.095
    
    [GRAPHIC] [TIFF OMITTED] T5724.096
    
    [GRAPHIC] [TIFF OMITTED] T5724.097
    
    [GRAPHIC] [TIFF OMITTED] T5724.098
    
    [GRAPHIC] [TIFF OMITTED] T5724.099
    
    [GRAPHIC] [TIFF OMITTED] T5724.100
    
    [GRAPHIC] [TIFF OMITTED] T5724.101
    
    [GRAPHIC] [TIFF OMITTED] T5724.102
    
    [GRAPHIC] [TIFF OMITTED] T5724.103
    
    [GRAPHIC] [TIFF OMITTED] T5724.104
    
    [GRAPHIC] [TIFF OMITTED] T5724.105
    
    Mrs. Morella. Thank you, Dr. Walker. And thank you for also 
in advance, a bit ago, maybe several weeks ago, sending us your 
report. We appreciated receiving that. Sarah Shapley, thank you 
for being with us.
    Ms. Shapley. Thank you, Madam Chairwoman and Ranking Member 
Norton.
    I am Sarah Stowell Shapley, elected Community Co-Chair of 
the Spring Valley Restoration Advisory Board for the Army Corps 
of Engineers' cleanup of contamination related to World War I 
testing of chemical warfare material in our neighborhood. This 
Board is a mechanism authorized by statute for the Department 
of Defense's formerly used defense sites, known as FUDS, and 
has a membership comprised of the various institutional 
stakeholders int eh cleanup project, as well as 14 residents of 
Spring Valley.
    The basic purpose of this advisory board mechanism for the 
Corps is to provide it with a means of community review and 
comment on its proposed actions and plans, and for the 
community representatives, it means a direct interaction with 
the Government on these plans in a regular, continuing forum. I 
am pleased to be invited to testify again on behalf of the 
residents, as I did in July 2001, before the D.C. Subcommittee, 
as it revisits our neighborhood and to consider progress and 
problems 1 year later.
    To reset the stage, we of the Spring Valley FUDS have the 
dubious distinction of being a double danger FUDS. That's one 
of my cute phrases. Double danger FUDS, as we have both 
chemical and ordnance contaminations. I shall address the four 
points of interest you called this hearing to consider. I must 
note that we have not seen the GAO report until today, so we 
will comment on that in the followup period.
    Our motto remains focus forward, but now, in 2002, what 
that focus means is finish in 4 years. So today my theme and 
slogan is, finish in 4 years. We have a focus for this 
committee itself, support, please, our appropriations request 
for earmarked funds to enable us to finish in 4 years. The time 
is now, the year at issue is the fiscal year 2003 appropriation 
and the further need is to incorporate an additional mandate 
for the years fiscal year 2004 through fiscal year 2006. This 
request is the heart of our report today on the status of 
remediation efforts. We believe the Government, all three 
partners, are ready to finish in 4 years. But they need the 
mandate.
    You asked about the performance of the Government agencies 
involved in the Spring Valley FUDS project. We can report major 
progress in the level of cooperation, the openness and 
consensus achieved among the three Government partners, the 
Army Corps of Engineers, the U.S. Environmental Protection 
Agency Region III, and the D.C. Department of Health. For 
instance, the partners' meetings have been open to residential 
members of the board, although they are internal, deliberative 
sessions. The partners report their developing plans as they 
evolve to one of our monthly board meetings. Staff from all 
three partners respond to e-mail inquiries and requests in the 
periods between board meetings.
    I will highlight that the partners have been considering 
adding or augmenting what are called points of interest. These 
are points where testing of remedial action will occur based on 
updated, integrated data mapping reviews. They are also 
considering the criteria for expanding the boundary of this 
FUDS based on recent soil test results.
    This flexible response to reality is reassuring. What 
matters most to residents is that the plans have the unanimous 
endorsement of the three partners. The mechanism and the 
participants seem to be working well toward that outcome.
    The other Government mechanism is the Mayor's Science 
Advisory Panel. Their meetings are open to the public. I am 
pleased to be able to say that we have a good, close liaison 
with this panel through its chairman and staff, before and 
after panel meetings.
    You asked about the review of health risks as defined for 
the Spring Valley FUDS. Here, we now have most of the results 
from the suite of standard screening reviews, what I call 
indicator studies. And this has good news to report. These 
indicator studies have been performed by the D.C. Department of 
Health and the CDC's Agency for Toxic Substances and Disease 
Registry. These indicator studies in turn have now been 
reviewed by the Mayor's Science Advisory Panels and officials 
from these agencies have reported the details in their 
conclusions.
    What matters most is that there appears to be no indicator 
of a significant level of health risk that would justify full 
blown studies and public health assessments. What has been and 
continues to be of concern to me is the difficulty of 
communicating the results in the process of study in this area 
of environmental health assessment. I know the chairman of the 
Mayor's Panel, Mr. Bailus Walker, shares this concern. Frankly, 
the job has just not gotten done. Partly it is a problem of the 
inherent difficult in translating environmental medical science 
into lay terms. This means not only the what but also the how 
of such environmental health assessments. Partly it is a 
problem of each agency having its own responsibility, function 
and procedure, so that the public is left with pieces rather 
than a narrative whole. We are constantly having to return to 
the need for a primer on the most basic terms and study process 
for exposure media and epidemiology, for instance.
    You asked about the status of remediation efforts. Before I 
elaborate on our major need on this subject, I just want to 
register three related issues of concern to the community. As 
the project moves into the remedial phase and yet more time 
passes by, people in the remedial group are concerned about 
real estate values and about timely help with containment 
measures while awaiting remediation. Everyone is concerned 
about the Government's final clearance notice certifying the 
safety of a property that would meet a realtor's standard and 
would convey with the deed of the land. On this last issue, we 
await a legal memorandum from the Army. And I have asked the 
Army to provide a statement of their responsibility under the 
FUDS program to return to remediate and restore any property in 
the event of future problems. This obligation to return needs 
to be clearly defined for the community.
    On the first two issues of particular concern to the 
remedial group of about 150 properties, time is the key. The 
more time is taken the more exacerbated are the concerns about 
adverse real estate impact and the more difficult are any 
containment measures necessary to protect homeowners in the 
normal use of their contaminated property while awaiting 
remediation.
    Now our main concern. With the status of remediation is the 
prospect of seemingly endless prolongation of uncertainty about 
its fulfillment. After a decade of dereliction, delay and 
uncertainty, we have appealed to congressional appropriations 
committee members to earmark sufficient funds in the FUDS 
budget, which falls under the purview of the Defense 
Subcommittees of the Appropriations Committee sufficient for us 
to finish in 4 years. The 4-year period, and I'll be happy to 
take more questions on this, which is fiscal year 2003 to 
fiscal year 2006, is the best feasible time limit achievable on 
both engineering and logistical grounds in the residential 
community.
    We ask your support as D.C.'s representative in Congress 
for this request, and for it to be fulfilled in the fiscal year 
2003 Appropriations Act.
    Let me lay out the position, and I'm pleased to say that 
some of these criteria and arguments have entered the discourse 
of the committee and some of my fellow panelists. We believe 
the Spring Valley FUDS merits the special congressional support 
of an earmarked, mandated level of funding for several reasons 
besides that of an excessively prolonged time line. Spring 
Valley is the first FUDS to have all these special 
characteristics, which means that this project is a test and 
model for the Government's ability to address any other 
comparable site in the future. And you've heard testimony to 
this point, I think, from the other representatives of the 
Government.
    First, it is a closely settled residential neighborhood 
with extensive and mature landscaping in a major American city. 
Second, it is a large site for an urban environment, and one 
which has been drastically topographically changed in its 
establishment as a residential neighborhood. Third, it is a 
site with both chemical contamination of an environmental 
medium, soil, and also chemical warfare munitions and ordnance 
explosives contamination. Fourth, it is a site organized for 
survey and remediation by homeowner property with all 
properties, each and every one, subject to testing, another 
first in the FUDS program.
    Fifth, the field testing for ordnance will use the most 
recently developed methods of geophysical detection and 
containment for removal, another test and model for the 
Government. Sixth, it is ranked level one in terms of the 
Defense Department's relative risk evaluation scheme. This last 
criterion addresses the question asked by the committee about 
other D.C., Baltimore District or Maryland FUDS. There are very 
few level one sites. Most sites are at the bottom end of DOD's 
ranking scheme. And I have provided to the staff and I know the 
staff has the previous GAO reports that itemize these rankings 
for the country.
    In sum, we believe the Government will benefit on both 
technical and managerial grounds if it meets this challenge in 
a positive, citizen-friendly way. We were pleased that our own 
Delegate Norton was successful in urging the Army to reprogram 
some fiscal year 2002 funds to cover unanticipated costs in the 
cleanup of one major munitions burial pit. This means the 
project is not entering fiscal year 2003 in a deficit position 
with respect to its plans for investigation and remediation. It 
means that with congressional help, fiscal year 2003 to fiscal 
year 2006 could see the end of this decade old problem, and the 
restoration of Spring Valley to its deserved environmental 
health in our Nation's capital.
    Living hand to mouth, or year to year, in our case, with 
uncertainty as to designated funding, is definitely not citizen 
friendly. I'm going to abbreviate the details on the finance, 
which will be in the submission to you.
    Mrs. Morella. We have it in what you have given to us here, 
$53,765,000.
    Ms. Shapley. Yes. The total estimate of cost to complete as 
of now, for Spring Valley, is $53.7 million, and thus the level 
of effort for each of the 4-years is $13.4 million. Then I've 
provided some detail as to how those estimates are derived. I 
will just call your attention, Madam Chairwoman, you asked 
about contingencies with respect to scope. The allowance in the 
Army's plan is for munitions and ordnance removal efforts of up 
to 200 properties or points of interest. So that is the scope 
that their present budget estimate allows for, which seems 
pretty sensible to me.
    Before closing, I would just ask that certain documents be 
included in the record, namely, our letter of appeal to 
Congress for earmarked funding, our followup points from 2001, 
and an op-ed piece on the Defense Departments' cleanup by 
former Deputy Under Secretary of Defense, Sherri Goodman. These 
have been provided to the committee.
    I would just call your attention to the page on national 
context, which has some detail about the scope of the Army's 
decisions and the prioritizations of FUDS. It is a very 
confusing issue to understand, and I think those few facts will 
supplement your interpretation of the GAO report.
    Mrs. Morella. Hearing no objection, they will all be 
included in the record.
    Ms. Shapley. Thank you, Madam Chairwoman.
    Finally, we have done our part in meeting month in and 
month out and delivering our letter of appeal to over 60 
Members of Congress and local D.C. political leaders. Now we 
must ask you to help. The Hill is your territory, Spring Valley 
is ours. I hope we can pursue the same course of action so that 
we do indeed finish in 4 years. Thank you, Madam Chairwoman, 
for this opportunity.
    [The prepared statement of Ms. Shapley follows:]

    [GRAPHIC] [TIFF OMITTED] T5724.106
    
    [GRAPHIC] [TIFF OMITTED] T5724.107
    
    [GRAPHIC] [TIFF OMITTED] T5724.108
    
    Mrs. Morella. Thank you very much for all the work that 
you've done in addition to your testimony today, Ms. Shapley. I 
know your slogan is ``finish in 4 years and get the appropriate 
funding of $53.765 million.'' And I note that you have also 
prorated it for 4 years.
    So now I'm pleased to hear from Mr. Harrop. But we now have 
been called for four votes. Then this committee room is going 
to be used at 1 o'clock for another subcommittee on which I 
also serve, dealing with homeland security. So if we hear your 
testimony, we'll see if I have a chance to ask a question then 
submit other questions from the subcommittee to you. Thank you.
    Mr. Harrop. Thank you, Madam Chairwoman. I am William 
Harrop, President of the Spring Valley-Wesley Heights Citizens 
Association. Our homes surround American University on three 
sides, which makes us the people who are most acutely affected 
by the chemicals and ordnance that the hearing is discussing. 
We very much appreciate the committee's continuing interest in 
our predicament. We appreciate, Congresswoman Morella, your own 
personal concern in the midst of a difficult electoral 
campaign, to take time on Spring Valley and the District.
    Since the Spring Valley Restoration Advisory Board, the 
RAP, was set up in May 2001, it has really taken the lead in 
speaking for the concerns of families in our area on this very 
long drawn-out campaign of evaluation and remediation. My 
statement will therefore be brief and will essentially support 
and reinforce the testimony of Sarah Shapley on my right, the 
community co-chair of the RAB, to whom I might say, our 
neighborhood is deeply grateful for all the time and effort she 
has devoted to this cause.
    My focus, like hers, will be on the heartfelt desire of our 
community that the remediation be completed expeditiously. We 
want to put this nagging, disruptive problem behind us. We 
earnestly ask your help in seeing that the required funds are 
appropriated and earmarked clearly.
    I will touch quickly upon the points of your agenda 
relating to Spring Valley. I also have not seen the GAO report 
yet and cannot really comment upon it. Second, in regard to the 
role, authority and responsibility of the various agencies 
involved, there were very profound problems and frictions and 
difficulties among these groups up until last year. I am 
encouraged by Sarah Shapley's rather positive comments about 
improvements in their responsiveness and coordination, that is 
EPA, Corps of Engineers, D.C. Department of Health and the 
Mayor's Science Advisory Panel, in their relations with the RAB 
in the last year. I agree very much with Congresswoman Norton 
that it would be a good idea for these organizations not to 
focus entirely on good teamwork, but also on looking at each 
other and being sure that each represents its own concerns and 
gets the job done effectively.
    In regard to the assessment of health risks posed by the 
contamination, I frankly am not aware of any evidence that 
there is now a significant health risk to our community, nor of 
evidence that during the last 80 plus years since the Army's 
warfare station closed down that the health of residents in the 
area has been really adversely impacted. I think it's 
interesting that all the evidence we hear and all the 
discussions do not seem to point to a severe danger.
    In regard to the status of efforts to remediate the 
contamination, Ms. Shapley's statement properly articulates 
homeowners' concerns about real estate values, about the need 
for a final certification from the Army of the safety of each 
property, and for an assurance of the Army's responsibility to 
return to remediate any property in the event of problems 
arising in the future.
    But the neighborhood's greatest worry is that the entire 
process seems to be going on without end. This is in part a 
question of adequate appropriations in the formerly used 
Defense sites, FUDS, budget. It is also the result, many of us 
feel, of the establishment of unrealistic and radially low 
cleanup thresholds of only 20 parts per million of arsenic. 
Setting this threshold at what seems to many an exaggeratedly 
conservative level, barely above, as we've heard in testimony 
today, the normal background incidence of arsenic in the soil, 
has triggered a much expanded effort to replace soil at very 
great taxpayer expense, and stretches out the remediation 
period and the disruption to our community.
    The decision to set such a low threshold seems particularly 
striking in the absence of evidence of significant risk to 
health. The Army originally worked on the basis of a 43 parts 
per million threshold. Why this level was so radically reduced 
in the absence of evidence of health risks is very puzzling to 
us. In fact, we are puzzled that the President of the Spring 
Valley Scientific Advisory Board went along with what we took 
to be an effort by the EPA to bring this threshold way down. 
With a threshold still at, say, 43 parts per million, I would 
imagine this would very much reduce the time required for 
remediation and would reduce this difficult budget that we are 
engaged in trying to get funds for.
    Assuming that we have no choice but to undergo the 
elaborate and costly earth removal activity, which this low 
threshold necessitates, I fully endorse and support the 
arguments presented by Ms. Shapley in behalf of earmarking 
sufficient funds over the next four fiscal years in 
appropriations for the FUDS and making clear that they are 
specifically assigned to this job in Spring Valley.
    Again, I wish to thank the subcommittee for its attention 
to this subject, which is of really very acute importance to 
families living in the area of American University, 
contaminated by the actions of the U.S. Army. Thank you very 
much, Madam Chairwoman.
    [The prepared statement of Mr. Harrop follows:]

    [GRAPHIC] [TIFF OMITTED] T5724.109
    
    [GRAPHIC] [TIFF OMITTED] T5724.110
    
    Mrs. Morella. Thank you very much, Mr. Harrop. I am going 
to adjourn the hearing in 15 minutes, but I am going to leave 
now and give my ranking member 15 minutes to be able to ask any 
questions she may have. I know that one of the questions she 
will ask will be one I also wanted to ask, and that is, has 
there been an adequate level of communication, this would go 
to, I guess, Ms. Shapley, between the agencies involved in the 
cleanup and the Spring Valley residents, especially related to 
health concerns.
    But before I adjourn the meeting, since I have four votes 
ahead of me and 5 minutes to get over there, I do want to also 
thank the staff for the work that they've done, in putting this 
hearing together. On the Democrat side, Jon Bouker, and Jean 
Gosa. On the majority side, Russell Smith, Matthew Batt, Robert 
White, Shalley Kim, Heea Vazirani-Fales. It's all yours, Ms. 
Norton.
    Ms. Norton. Thank you very much, Madam Chair. I want to 
apologize that the matter involving guns in the cockpit came up 
just as Ms. Shapley was beginning to testify, so I had to run 
over there very quickly.
    I'd like to begin with a question to Ms. Shapley, in fact. 
I noticed a discrepancy between the amount that the Corps 
indicates would be necessary over a 5-year period, $11 million, 
and your testimony, which estimates $13 million. What is the 
basis for your estimation?
    Ms. Shapley. I think what you're referring to as a 
discrepancy, Delegate Norton, is that you're referring to the 
$11 million?
    Ms. Norton. Yes, the $11 million versus the $13 million.
    Ms. Shapley. That's because the Army had done a plan that 
was looking at 5 years. And what I did was collapse the 
categories of expenditure into 4 years.
    Ms. Norton. Has the Army indicated they could do it in 4 
years with $13 million?
    Ms. Shapley. That was what they indicated to me was the 
shortest timeframe that would still be feasible. Five years 
happened to be their planning horizon, and I asked, in effect, 
is 4 years feasible. My rationale for doing that, frankly, was 
of course to honor the citizens' concern that this has been 
dragging on for so long, and 4 years still leads us out to 
fiscal year 2003. And frankly, to allow for the contingencies.
    So it seemed to me to do the mainstream planning effort and 
designation for 4 years and everybody knows you're going to 
have to live with contingencies if they happen. That was the 
rationale. So it's the same units, the same estimates.
    Ms. Norton. I want to particularly commend you, Ms. Shapley 
and you, Mr. Harrop, on the very analytical and level headed 
and balanced way you have approached this entire exercise. I 
mean, either we can act like wild people, scaring a beautiful 
community, in an effort to try to get this done, or we can, as 
representatives of the community, inform the community and at 
the same time, be careful as to how that information is 
relayed. When the words arsenic and munitions in the ground and 
contamination are floated around, it is very easy, I've seen 
this kind of thing in ANCs, for example, not in yours in 
particular, where any word of that kind is used and abused 
beyond the evidence. Whatever the experts here believe or 
themselves communicate, as far as the community is concerned, 
you are likely to be the most credible sources of information, 
because you stand in their shoes exactly.
    I was, for that reason, concerned to hear that while Ms. 
Shapley believes that full-blown studies of the kind that might 
be necessary if there was evidence of contamination of the soil 
or health effects that we don't have here that might be called 
for, the problem you see is in the difficulty of relaying 
information in part because of the several agencies that are 
involved and we are dealing with scientific terminology and the 
rest. I don't know what you would recommend in that regard, but 
I would be very interested in anything you and Mr. Harrop would 
recommend considering these people have to get on and do the 
job.
    But that part of doing the job is making sure that people 
have the necessary information so they don't feel they should 
move, or don't feel the community is unsafe. What would you 
suggest therefore might be done to improve communication from 
the agencies involved to the community?
    Ms. Shapley. Madam Delegate, I know that Dr. Walker and I 
have had conversations about this problem of communicating. Let 
me just give you an example. I've interacted extensively with 
the D.C. Health folks. I've asked them, well, now, you've done 
a briefing on the study, could you do a narrative report about 
it. And that becomes an extra job suddenly for them to 
translate that into a narrative report. And with all due 
respect, and I was very grateful for their prompt response, but 
the narrative report still did not explain what I referred to 
in my testimony as a primer, in other words, how do 
epidemiology studies get done? Where do you start? What is the 
chain? How do you move from what I've characterized here as an 
indicator study to what is a full-blown study?
    So in a sense, answering that question, which actually puts 
context and allows one, as you say, to stay within the 
evidence, is just not on anybody's table to do. When the Agency 
for Toxic Substances and Disease Registry came to brief us, 
they talked a great deal about their exposure investigation. 
But somehow, what never got communicated was, well, what is the 
difference in the level of study between that initial 
investigation, what I'm calling indicator studies, and when you 
actually go to a full-blown health assessment?
    I actually pleaded with them, tell us, maybe the Rear 
Admiral will today, how many of these screening level studies 
do they do nationally, and how few instances are actually 
justified doing the full-blown public health assessment. My own 
suspicion is that it's probably 1,000 to 1 ratio. It's a big 
ratio, I suspect. That's what I meant by not, and that's part 
of alleviating people's worries, in some sense. You do 
indicator studies to indicate if there's a justification for 
doing in-depth studies. That's one of the missing links.
    On the budget end, my specific recommendation, as has 
become clear talking with D.C. Health folks, they get money in 
this project, as I understand it, to perform various review 
functions. It's clear that they don't have enough money as 
their share to actually do some of this extras by way of 
communication and reporting. So I think this is one of those 
instances of the fall between the cracks, the administrative 
running costs that don't maybe make it to the top layer in 
budgeting between the partners. But I know it's an added burden 
beyond what they are already charged to do to ask D.C. Health, 
for instance, to do a unified document that brings all these 
things together and tries to articulate some of this kind of 
context.
    Ms. Norton. In the Congress, when we have this kind of 
problem, and we have it often because of the nature of 
legislation, we often prepare what we call questions and 
answers for real people, rather than to talk in the jargon of 
legislation. I'm wondering if Admiral Williams, I'll think of 
the deepest pockets here, the oldest experience, I wonder if 
common sense questions and answers, which usually take the form 
of a question with a couple or three sentences as the answer, 
because we're not trying to give an encyclopedic response. 
Frankly, a rather surface response, primer I think is the right 
word for it, Ms. Shapley. I wonder if that could be done here?
    Admiral Williams. Congresswoman Norton, that certainly can 
be done. I think Ms. Shapley's comments are very well placed 
and we can followup on those to address those issues. One of 
the things that we are doing is we're putting out a newsletter 
every 6 months that provides information to the community on 
ATSDR's activities. For this next issue, we will certainly put 
a Q&A portion in there, working with Ms. Shapley and other 
members of the community to address those concerns.
    Ms. Norton. Well, I hope this means we've accomplished 
something at this hearing rather concrete. Yes, Dr. Walker.
    Mr. Walker. Let me add, Congresswoman Norton, I think there 
has been some efforts underway to address that. And I think as 
Ms. Shapley pointed out, it's not an easy task. Getting the 
community to understand the difference between exposure dose, 
biologically effective dose, is not an easy task, even for 
those who have passed a course in toxicology.
    But the Corps, to its credit, did engage a consultant that 
spent, I believe, considerable time with the community laying 
out almost in an ABC fashion the whole issue of the health 
effects of arsenic.
    Ms. Norton. That was orally?
    Ms. Shapley. Yes.
    Ms. Norton. That was orally, apparently.
    Ms. Shapley. Well, no, it was then circulated not to the 
entire community, but it was up on the Web site.
    Ms. Norton. Did it take the form of testimony?
    Mr. Walker. No, Congresswoman Norton, it was almost an ABC 
of how one moves from exposure to arsenic to the health 
effects, what we know about the health effects, etc. And while 
our panel was appreciative of that and certainly commended the 
presentation, there were some gaps in the information. 
Nevertheless, I think my point is that was an effort to address 
community concerns about some of the scientific aspects of this 
problem.
    And ATSDR had an all day session at EPA facilities 
discussing how health effects studies are done. But obviously 
we can do more. I think those efforts should be recognized.
    Ms. Norton. Should be recognized, and I think especially in 
light of the testimony we've heard here, that I think has been 
very balanced, that there is a problem in getting people to 
understand that what Rear Admiral Williams has indicated he 
will do would be very helpful.
    Mr. Harrop did have something to say in this regard.
    Mr. Harrop. Thank you, Delegate Norton. I just wanted to 
say that I agree completely with your concern about excessive 
worry and anxiety and rumor spreading through the community. 
It's a big problem. It seems to me that what we really should 
focus on is the fact that as I understand it, the tests that 
have all been done to date, whether it was the tests of all the 
children at the Child Development Center at American 
University, whether it was the test that was just mentioned a 
few moments ago of the number of people living in areas most 
sharply affected, have really not come up with any evidence of 
great health risk.
    I think that the behavior of authorities has been on that 
basis. In other words, the District regulatory authorities went 
ahead to authorize American University to proceed with major 
land movement, major excavation and development, before those 
areas of the campus had been explored. The District has done 
nothing about slowing down what I would imagine must be one of 
the most active excavation and home building and home 
remodeling areas in the city right around American University, 
within block or two. That's gone on apace as though there were 
no problem. In fact, we began to wonder how great a problem 
there really is if that kind of work would continue.
    The Army has just asked the six families on whose property 
it's going to be doing some major earth movement, these are the 
six families in Fort Gaines who had extremely high, everyone 
was concerned by it, very high levels or arsenic, they're going 
to have major soil replacement. The Army asked those people to 
move out for 2 to 4 weeks while the work was done and then said 
explicitly, this is not because we believe there is any health 
danger. It is because we think there might be some work site 
safety problems and that sort of thing and it would be better 
for you not to be there.
    So the Army itself does not see, even in these highly 
contaminated areas, a direct immediate health problem. So I 
just think that we have to be cautious not to allow the obvious 
interest to the press in building things up, excitement, to get 
us too worried about it. It's against this background that I 
personally very much regret setting the threshold at such a 
very low level that we're going to have at least, as Ms. 
Shapley said, maybe four to five more years of activity, which 
it will be very hard to finance in getting fully actually 
behind it.
    Ms. Norton. I think that really comes out of the delay 
caused by the failure of the Federal agencies to come forward 
early on, after 1986, tell the truth and get this thing 
started. Once you have that kind of problem, it seems to me you 
have to err on the side of caution. That's what I think the 
community is requiring. Perhaps it overdoes it. But I don't 
think there's any choice now. Because of all the controversy, 
the only way to put it to rest, it seems to me, is to convince 
people that you've done all that you could possibly do. Because 
even then, we know as a matter of science we will not erase all 
doubt. There is a line that we must walk between the kind of 
stupid panic that drives people out of a beautiful community 
and drives down their own property values and absolutely 
necessary vigilance which is necessary to keep the Federal 
Government's feet to the fire. Finding that balance is of 
course going to be very, very important.
    Now, one of the ways you find that balance is you look at 
the testing that has been done. The residents, for example, 
have, at least some residents, have complained that there have 
been too small a number and too narrow a scope of testing to 
get an accurate idea of exposure. So I'd like to ask Admiral 
Williams whether or not he believes that the ATSDR study is 
comprehensive enough to draw conclusions about arsenic 
exposure, based on numbers and on scope of what testing has 
already been done.
    Admiral Williams. Thank you, Congresswoman Norton.
    As was suggested by Ms. Shapley, these are indicator 
investigations. They are narrow in scope, they are a small 
number of population. They are intended to see if people are 
currently being exposed, as Dr. Walker said, is there a body 
burden of arsenic in the people that we're testing. So it's not 
an extensive study.
    But in this last study, we looked at the homes where the 
highest level of soil arsenic were found. We took the composite 
samples provided to us by the Army and said, if we look at the 
greatest potential for exposure, it should come from those 
yards that have the highest composite arsenic levels. Those are 
the folks who we invited to participate in the study.
    Now, that doesn't assure us that no one else within the 
community has been exposed. But we would expect to see 
exposures greater in the folks that have the greater potential 
for it.
    Ms. Norton. But there has been a complaint, and I'd like to 
hear your response to a concern that the study was done in the 
winter months, I'd like to know why it was done in the winter 
months, you think that doesn't matter. Of course, the winter 
months are when people are inside, they're traipsing in and out 
where you might bring arsenic inside, the mere fact that it's 
less likely that the arsenic itself, if it is in the soil, 
would be stirred up. Why was it done in the winter months and 
can you do it again in the more temperate months of the year?
    Admiral Williams. That was one of the recommendations in 
terms of looking at periods of time when activity would be 
greater by the participants, in the summer months. That was one 
of the recommendations by the Scientific Advisory Panel. We 
concur with their recommendation. We did this one at the time 
we did because we were understanding that some remediation, 
cleanup of properties, was going to be occurring. And we didn't 
want those folks to later say, ``well, of course you didn't 
find anything, our yards have been cleaned.'' So we wanted to 
give them an opportunity for testing early on. So if cleanup 
progressed faster, if it had occurred before the summer, they 
would have been tested.
    We do plan to go into the community again during the summer 
months and do additional exposure investigations.
    Ms. Norton. Which summer months? When, what year?
    Admiral Williams. This year, ma'am.
    Ms. Norton. You're going to undertake a study this summer?
    Admiral Williams. Another exposure investigation in July, 
August, September timeframe.
    Ms. Norton. That is very reassuring.
    My 15 minutes have long gone by. I know I speak for the 
Chair of our committee, Mrs. Morella, when I not only thank and 
commend all of you who have testified, but the prior witnesses 
as well. This has been very informative for us. It has 
performed the function we expected today, which was simply to 
bring us up to date.
    As I indicated in my own opening statement, and I'm sure 
that the Chair agrees here, some of the questions have been 
cleared up. The GAO report did not address as many questions as 
we had hoped, in part because of ongoing investigations and 
because some of the data still is not in. What that does is to 
put an obligation on this subcommittee to have regular hearings 
on this matter until the sign-off has told us that this work is 
done. I can assure you that will happen.
    We may call upon each and every one of you again. I thank 
you very much for the work you're doing. My staff and Mrs. 
Morella's staff will continue to be in close contact with you, 
and I hope you will bring to our attention in between hearings 
and meetings any matters that require our attention.
    Again, I thank you, each and every one of you for your very 
helpful testimony and for encouraging us to believe that the 
community, working with the Federal agencies, are in fact going 
to get this job done. Thank you, and the hearing is adjourned.
    [Whereupon, at 12:18 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]


</pre></body></html>
